                          WHITE PAPER



Public-Private Partnerships:
Best Practices and Opportunities
for the Postal Service
June 24, 2013




                     Report Number: RARC-WP-13-011
RARC-WP-13-011                                                                      Public-Private Partnerships




                                                                 EXECUTIVE SUMMARY


Public-Private Partnerships: Best Practices
 and Opportunities for the Postal Service
Public-private partnerships (PPPs) are an
                                                                        Highlights
increasingly popular way for governments
to achieve policy goals and develop                   There are real opportunities for the Postal
infrastructure, while shifting short-term             Service to earn income from its real estate
financial burdens away from taxpayers and             portfolio, upgrade its infrastructure, benefit
strained government coffers. In the postal            from private sector innovation, and make its
                                                      cost structure more variable so costs
sector, PPPs have helped international
                                                      decline with volume.
postal operators reduce the costs of
universal service and leverage the skills             PPPs have helped postal operators reduce
and know-how of private businesses.                   the costs of universal service and leverage
                                                      the skills of private businesses. The posts
Given the depth of the financial problems             use a wide variety of PPP models
                                                      successfully, including franchising,
of the U.S. Postal Service, the time is right
                                                      co-location in private retail facilities, and
to consider greater use of PPPs. When                 sale and leaseback agreements.
designed and executed well, PPPs can be
a useful instrument for the Postal Service            Foreign posts have used PPPs to lower or
to manage costs, secure capital needed to             eliminate fixed costs in retailing, real estate,
modernize its infrastructure, and acquire             and fleet management. Turning these fixed
                                                      costs into variable costs allows them to
new know-how to spur product innovation.              decline along with mail volume.
Some PPPs can also provide short-term
injections of cash to the Postal Service as           A key lesson from U.S. states and foreign
part of a long-term symbiotic arrangement,            governments is that there are benefits in
bolstering an organization which suffered a           centralizing and professionalizing PPP
                                                      expertise and best practices.
$15.9 billion loss in 2012.
                                                      The Postal Service has experience with
Foreign posts have used PPPs to lower             PPPs in several functional areas, but does
the costs of providing retail services to the     not use a cohesive PPP strategy or
public through franchising initiatives and to     operational approach.
upgrade their vehicle fleets while reducing
fleet management costs. These strategies have also helped foreign posts adapt to the
decline in the hard copy mail market by changing the nature of their costs from fixed to
variable, so that costs fall along with declining mail volumes. In the United States,
federal and state agencies have used PPPs to finance expensive public works projects.


U.S. Postal Service Office of Inspector General                                                 June 24, 2013
                                                  i
RARC-WP-13-011                                                                            Public-Private Partnerships



While the Postal Service does not use a single cohesive PPP strategy, it has
experience with PPPs in a number of functional areas such as the Contract Postal Unit
(CPU) program, which allows privately owned retail facilities to sell postal services.
Worksharing — a program in which Postal Service customers obtain discounts for doing
postal work that they can perform more efficiently — is essentially an innovative PPP
available to the entire mailing industry rather than a single partner. 1 The Postal Service
also has a number of marketing affiliate relationships with private businesses and
operational partnerships designed to leverage private sector efficiencies.

Nonetheless, the Postal Service can learn from the experiences of foreign postal
operators and other U.S. federal and state agencies. A key lesson from observing other
public organizations is that there are significant benefits in consolidating PPP expertise
within a single office. A PPP office can serve as a repository for best practices;
standardize and disseminate such practices to functions throughout the organization;
act as a champion for PPPs; and develop the financial, legal, technical, and
communications skills that are necessary for the successful development of PPPs. Such
an office could also serve as a well-defined and easily identifiable point of contact for
potential partners.

This paper reviews lessons learned from the Postal Service’s use of PPPs, and
identifies critical success factors for effective PPPs based on the experiences of foreign
postal operators and U.S. government agencies. The paper also identifies potential
partnership opportunities for the Postal Service, and suggests adoption of some best
practices to help guide a future strategy toward PPPs. While PPPs are not a panacea,
the review indicates there is potential for the Postal Service to receive further benefits
from greater use of PPPs, particularly through the establishment of a central, high-level
PPP office.




1
 See U.S. Postal Service Office of the Inspector General (USPSOIG), Assessment of Worksharing, Report No.
RARC-WP-10-005, July 12, 2010, http://www.uspsoig.gov/foia_files/rarc-wp-10-005.pdf.

U.S. Postal Service Office of Inspector General                                                       June 24, 2013
                                                       ii
RARC-WP-13-011                                                                                             Public-Private Partnerships




                                                  Table of Contents
Introduction ..................................................................................................................... 1

Defining PPPs ................................................................................................................. 2

Lessons Learned from U.S. Postal Service PPPs ........................................................... 5

PPPs beyond the U.S. Postal Service ............................................................................. 7

Experiences of Foreign Posts with Partnerships ............................................................. 7

U.S. Federal and State Government Agencies’ Experiences with PPPs ....................... 11

Lessons Learned from Foreign Posts and U.S. Agencies ............................................. 14

Future Opportunities for the Postal Service................................................................... 17

Upgrading and Modernizing the Postal Service’s Infrastructure .................................... 17

New Products and Revenue Generation ....................................................................... 19

Real Estate Monetization .............................................................................................. 20

Conclusion .................................................................................................................... 23


                                                    Appendices
Appendix A                PPP Definitions and Typologies .......................................................... 24

Appendix B                U.S. Postal Service Use of PPPs ........................................................ 31

Appendix C                Foreign Posts and PPPs ..................................................................... 37

Appendix D                PPPs and Government Agencies in the United States ........................ 49

Appendix E                A Brief Overview of Value for Money (VfM) Analysis ........................... 56




U.S. Postal Service Office of Inspector General                                                                        June 24, 2013
                                                                 iii
RARC-WP-13-011                                                                                              Public-Private Partnerships



                                                           Tables
Table 1                   A General Classification Scheme for Public-Private
                          Partnerships .......................................................................................... 3
Table 2                   Classification of Foreign Post and U.S. PPPs ....................................... 7
Table 3                   Franchising ............................................................................................ 9
Table 4                   Retail Location Partnerships ................................................................ 10
Table 5                   Enhanced Use Lease .......................................................................... 12
Table 6                   Long-term Lease and Concession ....................................................... 13
Table 7                   Classification of Future PPP Opportunities for the Postal
                          Service ................................................................................................ 17
Table 8                   Typology of PPPs According to the Tasks Assumed by
                          the Partner ........................................................................................... 26
Table 9                   Typology of PPPs According to Legal and Business
                          Arrangements ...................................................................................... 27
Table 10                  Classification of Present and Past Postal Service PPPs ..................... 32
Table 11                  Classification of Foreign Post PPPs .................................................... 37
Table 12                  Vehicle Fleet Management Strategies ................................................. 38
Table 13                  Vehicle Fleet Leases ........................................................................... 39
Table 14                  Real Estate Management – Germany ................................................. 42
Table 15                  Franchising/Licensing Model ............................................................... 44
Table 16                  Examples of Strategic Alliances for Innovation .................................... 47
Table 17                  Classification of Government Agency PPPs in the United
                          States .................................................................................................. 50
Table 18                  Access to Cutting-Edge Technology.................................................... 51
Table 19                  Monetizing Public Agencies’ Patents or Research .............................. 52
Table 20                  Long-term Concessions ....................................................................... 53

                                                          Figures
Figure 1                  PPPs Along a Continuum of Private Sector Involvement .................... 30
Figure 2                  VfM Compares Net Present Value of Alternative
                          Procurements ...................................................................................... 57
Figure 3                  An Illustrative Outcome of a Quantitative VfM Analysis ....................... 58

U.S. Postal Service Office of Inspector General                                                                         June 24, 2013
                                                                  iv
RARC-WP-13-011                                                                              Public-Private Partnerships



         Public-Private Partnerships: Best Practices and
               Opportunities for the Postal Service
Introduction
The U.S. Postal Service is facing several severe problems. Short-term issues include a
loss of nearly $16 billion in 2012 and serious cash flow concerns in 2013. In the long
term, increased reliance on electronic communications by consumers and businesses
has caused a decline in the core mail business. First-Class Mail volume peaked in the
1990s, while overall volume is down sharply from a peak of 213 billion pieces of mail in
2006 to 160 billion pieces in 2012, jeopardizing the Postal Service’s ability to provide
universal service through extensive and costly national networks.

Stabilizing Postal Service finances and remaining relevant in modern communications
will require significant restructuring of operations and the workforce, and updating its
product portfolio. However, the Postal Service is not well positioned, by itself, to make
all of these transitions. Postal Service know-how is concentrated in the declining
                               traditional mail business, with the exception of e-commerce
   PPPs can help the           parcel delivery. Parcels, however, make up less than
   Postal Service with         20 percent of Postal Service revenues. U.S. public policy
   cost avoidance,             does not permit the acquisition and merger strategies that
   revenue generation,         foreign posts have used to enter new markets, while the
   and infrastructure          Postal Service lacks capital to acquire significant new
   investments.                technological capabilities. Furthermore, the Postal Service
                               lacks the cash to make needed investments even in its
traditional business. The Postal Service was scheduled to replace large portions of the
vehicle fleet in the mid-2000s, but has deferred the replacements, as well as many other
maintenance and capital investment needs, due to a shortage of capital.

Strategic use of public-private partnerships (PPPs) could help the Postal Service to
address these problems. 2 Foreign postal operators, other government agencies in the
United States, and the Postal Service have used PPPs to achieve several business
objectives, including

          Cost avoidance, such as reducing the need for public capital investment by
           transferring project financing in full or in part to the private sector. PPPs can also
           make organizational costs variable by replacing fixed assets with third-party-
           operated facilities. Organizations can make costs variable by taking a cost that is
           fixed in nature, such as owning and maintaining a vehicle or building, and turning
           it into a cost that is more flexible and can be more easily adjusted to meet


2
  The recent paper Restructuring the U.S. Postal Service: The Case for a Hybrid Public-Private Partnership by Ed
Gleiman, George Gould, Ed Hudgins, and John Nolan discusses PPPs in the context of a large-scale restructuring of
the postal system. Restructuring the U.S. Postal Service, January 2013, http://www.napawash.org/wp-
content/uploads/2013/01/Hybrid-Public-Private-Postal-Service-1-2-13-3.pdf. This OIG whitepaper examines PPPs of
a much narrower scope, and does not address the broader policy issue of large-scale industry restructuring.

U.S. Postal Service Office of Inspector General                                                         June 24, 2013
                                                        1
RARC-WP-13-011                                                                                Public-Private Partnerships



           demand. Making costs more variable is particularly important in the postal sector,
           where demand for mail continues to fall.

          Accelerating the development and introduction of product and process
           innovations.

          Developing new growth engines through diversification to serve new customer
           segments.

This paper will review lessons learned from the Postal
Service’s use of PPPs, and identify critical success           Organizations can
factors for effective partnerships based on the                make costs more
experiences of foreign postal operators and U.S.               variable by taking a
                                                               cost that is fixed in
government agencies. The paper also identifies
                                                               nature and turning it
potential partnership opportunities for the Postal             into a cost that is
Service, and suggests adoption of some best practices          more flexible and can
to help guide a future strategy toward PPPs. The review        be changed to match
indicates there is potential for the Postal Service to         demand.
receive further benefits from greater use of PPPs,
particularly through the establishment of a central, high-level PPP office.

Defining PPPs
The National Council for Public-Private Partnerships (NCPPP) offers the following
definition of a PPP:

           [A] contractual agreement between a public agency (federal, state or local)
           and a private sector entity. Through this agreement, a certain range of
           skills and assets of each entity (public and private) are shared in delivering
           a service or facility for the use of the general public. In addition to the
           sharing resources, each party shares in the risks and rewards potential in
           the delivery of the service and/or facility. 3

This paper loosely follows the NCPPP definition. The NCPPP’s definition goes beyond
the mere procurement of products or services, which does not involve sharing assets or
risks. At the other end of the spectrum, outright privatization of the public asset is also
excluded from this definition. The term PPP is also used by governments and
intergovernmental organizations in a broader sense. It encompasses any type of joint
activity governments initiate to help achieve public policy goals and involves private
companies, civil society organizations or other government agencies. Government-led




3
 Richard Norment, The Framework of Public Private Partnerships, May 11, 2011,
http://www.ncppp.org/events/conference-materials/implementing-partnerships-for-infrastructure/, p. 5.

U.S. Postal Service Office of Inspector General                                                           June 24, 2013
                                                         2
RARC-WP-13-011                                                                                 Public-Private Partnerships



standardization activities or plans to revitalize specific industries or to speed up
innovation belong to this category as well. 4

There are numerous PPP models; all are variations on basic business and contractual
arrangements that define the risks and responsibilities shared with or transferred to, the
private partner. (See Appendix A for a detailed explanation of the main PPP models.)
PPPs can be categorized in several ways. A simple but clarifying classification scheme
aligns the types of partnerships along two axes: one based on the proposed time
horizon, either short term (tactical) or long term (strategic); and the other on the primary
business objective, either cost optimization or business development/new revenues. We
will refer to this classification scheme throughout the paper.

             Table 1: A General Classification Scheme for Public-Private Partnerships

                                          Cost Reduction                        Revenue Generation


                                     Cost Variabilization, Asset                     Go-to-Market
                                           Monetization

                              Reducing fixed costs and leveraging      Growing market for current products in
       Tactical               underutilized assets                     new segments and geographies

                                      Real property leases                 Most USPS revenue-sharing
                                      Contract Postal Units                 alliances with strategic partners
                                      Franchised Post Offices               (such as hybrid mail partners)


                                      Long-term Efficiencies                         New Spaces

                              Creating economies of scale or           Diversification, capability to innovate
                              scope, leveraging private-sector
      Strategic
                              ability to manage efficiently                 Postal joint venture with banks
                                                                            Solution partnerships, i.e., digital
                                      Worksharing                           mail
                                      Parcel Select




Cost-reduction Approaches
The upper-left quadrant of Table 1 includes cost-reduction efforts of a tactical or short-
term nature. These efforts generate immediate or nearly immediate cash savings and
include real property leases and contracting out the management of postal retail
facilities. There is some crossover of activities between this quadrant and the revenue
generation quadrants, as this category includes efforts to reduce the burden of costly

4
  For instance the White House-created US Ignite Partnership, aimed at “connecting, convening and supporting
startups, local and state government, universities, industry leaders, federal agencies, foundations, and community
and carrier initiatives in conceptualizing and building next-generation ultra-fast network applications in education,
manufacturing, health, transportation, public safety and clean energy.” US Ignite, “US Ignite Launches to Catalyze the
Next Generation of Internet Applications,” June 14, 2012, http://us-ignite.org/2012/06/us-ignite-launches-to-catalyze-
the-next-generation-of-internet-applications/.

U.S. Postal Service Office of Inspector General                                                            June 24, 2013
                                                               3
RARC-WP-13-011                                                                                Public-Private Partnerships



infrastructure by using such properties to generate income, thereby reducing the net
expenditure on a property. For example, where the Postal Service is unable to dispose
of a Post Office due to service requirements or stakeholder opposition, executing a sale
and leaseback agreement with a partner could reduce the net short-term costs of
remaining in the facility. 5 Other tactics in this quadrant include selling and leasing back
fleets of vehicles or providing Post Office franchises to third parties as a replacement for
traditional retail facilities.

The second cost reduction quadrant focuses on strategic PPPs aimed at reducing costs
or gaining efficiencies in the long term. Such strategies can change the basic cost
structure of the Postal Service. Most infrastructure PPPs belong in this category: the
private partner brings its technical and management skills to the construction, operation,
management, and/or maintenance of a facility or public service. The public entity should
carry out a Value for Money (VfM) analysis, a tool for comparing the overall value of a
PPP to a traditional procurement approach. To justify entering into a PPP, the VfM or a
similar analysis should show that over the long term a lease or concession arrangement
will provide a better value than traditional public management and procurement
approaches.

In the postal sector, this quadrant would also include strategic partnerships aimed at
minimizing end-to-end processing and delivery costs. The Postal Service’s partnerships
with other delivery services such as FedEx and UPS fit in this category, as could its
extensive worksharing program, in which private mailers receive discounts for
performing some upstream activities such as mail processing and transportation.

Revenue-generation Approaches
Like cost-reduction approaches, revenue-generation PPPs can have either a long-term
or a short-term focus. Short-term opportunities, in the upper right quadrant, are
organized under the “go-to-market” heading. These involve products that are ready to
be marketed to potential buyers. Choosing a PPP as the market entry tactic can help to
overcome barriers to entry. Introducing a product in a new geographic area or entering
a new market segment can be complicated and costly. It may expose the enterprise to
several obstacles, such as a lack of local market or segment knowledge, entrenched
competition, regulations, and additional operating complexity. There are also risks
based on opportunity costs and financial losses due to improper assessment of market
conditions. In the postal sector, partnerships with private retailers to provide alternative
drop-off points for parcels are one example of PPPs that address these barriers.


5
  This paper mentions leasing out real or personal property in several places. Potential changes to accounting rules
could make leasing less attractive to many organizations from an accounting and taxation standpoint, but these
changes are not expected to eliminate other incentives to enter lease arrangements. The other incentives for leasing
include obtaining cash and leveraging external expertise. See Jeffrey Shell, Grubb & Ellis, Changes to Lease
Accounting: Will sale/leasebacks still make sense? http://www.grub-bellis.com/Data/Articles/ChangesLeasingAccount
ing.pdf. Both the potential accounting changes and increased use of leasing could require the Postal Service to make
changes to its systems for tracking real estate. The Postal Service has already begun to evaluate its systems to
prepare for the potential changes. Timothy O’Reilly, Controller, U.S. Postal Service, memorandum to Joseph Corbett,
Chief Financial Officer, “Fiscal Year 2012 – Management’s Communication of Control Deficiencies,” February 12,
2013.

U.S. Postal Service Office of Inspector General                                                           June 24, 2013
                                                         4
RARC-WP-13-011                                                                                 Public-Private Partnerships



Another example is the Postal Service’s affiliate partnership arrangements with hybrid
mail companies, which can market their services on the usps.com website.

Long-term revenue generation partnerships or “new spaces,” on the other hand, include
potentially high-value PPPs that have a longer payoff time through the generation of
new revenue streams. These include foreign postal experiments with banking, and
initiatives by the Postal Service and other postal operators to partner with providers of
digitally enhanced postal services. Gaining new capabilities is often a reason for postal
operators to seek PPPs, along with strategic diversification, speeding up innovative
product development, and applying new technologies. From the perspective of a private
sector partner such as a bank or mobile phone operator, a partnership with the public
postal operator can allow it to leverage the brand and image of the post as well as the
post’s distribution channels, and broaden its geographic coverage.

Lessons Learned from U.S. Postal Service PPPs
There are several examples of Postal Service PPPs aimed at both revenue generation
and cost containment, and many partnerships have both types of benefits. PC Postage
partnerships, for example, have allowed end users to benefit from new products, as
vendors innovate and compete for consumers on the postal platform, while also
avoiding certain retail costs for the Postal Service. Despite the successful deployment of
some PPPs, there appears to be room for improvement.

A few promising PPPs, such as the Electronic Postmark (EPM) and hybrid mail
programs, were discontinued or lost momentum before reaching their potential due to a
lack of focused and sustained attention. These PPPs have a high potential value for the
Postal Service and its customers. In addition, the U.S. Postal Service Office of Inspector
General (OIG) found that the Postal Service had lapses in validating revenues received
from some partners. 6 A review of relevant research and interviews with former postal
employees and stakeholders involved in PPPs reveal the concerns listed below:

          The Postal Service has put its short-term financial interest at the forefront of
           initial discussions, reducing the interest of both private and governmental
           partners. 7

          There are significant regulatory barriers to some PPPs. For example, the Postal
           Service is prohibited from offering new nonpostal products. If a potential private
           sector partner offers a nonpostal product, this prohibition might prevent the
           Postal Service from forming a partnership that would result in a marketable




6
  USPSOIG, Revenue Sharing Agreements Audit Report, Report No. FI-AR-12-004, September 14, 2012,
http://www.uspsoig.gov/foia_files/FI-AR-12-004.pdf, p. 2.
7
  Interview with former executive who held roles in business development, strategic planning, and ID protection,
February 25, 2013.

U.S. Postal Service Office of Inspector General                                                            June 24, 2013
                                                          5
RARC-WP-13-011                                                                                Public-Private Partnerships



           product. 8 The uncertainty impedes negotiations with businesses, despite possible
           synergies available through a PPP. 9

          The stage gate approval process and requirements for short-term financial
           returns can dissuade innovation. 10

          Success in forming and executing PPPs is largely dependent on the internal
           sponsor’s luck in having the right personnel assigned to the partnership. The
           quality and mindset of legal personnel, in particular, can “make or break” PPPs. 11

          Some of the best proposals are new, paradigm-shifting ideas that are not readily
           understood because they do not fit into past practices. A former manager
           involved with several successful innovations and partnerships acknowledged that
           “the really good ideas are the ones I didn’t understand.” The former manager
           said the Postal Service, like other organizations, needs to devote sufficient
           resources to properly analyzing new partnership opportunities, if only to
           understand the implications of saying “no” to a potential blockbuster
           technology. 12

          The Postal Service can be slow and bureaucratic in reaching deals, launching
           new initiatives, and resolving partner complaints. 13

          Potential partners report significant difficulties in locating and obtaining
           information from points of contact. One organization searched for one year to
           identify the relevant Postal Service contact person. 14 The organization eventually
           entered into a successful partnership with the Postal Service, but many
           businesses will not or cannot afford to be so persistent or patient. 15

                                                  Another major takeaway from a review of Postal
    A single centralized PPP                      Service PPPs is that there is not a single entity within
    office can provide a point of                 the Postal Service that collects, organizes, and
    contact for potential
                                                  studies the lessons learned from the various
    partners, and implement and
    disseminate best practices.                   successful or unsuccessful partnerships, and shares
                                                  results throughout the organization. Such an entity

8
  See Postal Regulatory Commission, Phase II Review of Nonpostal Services Under the Postal Accountability and
Enhancement Act, January 14, 2010, Order No. 392, Docket No. MC2008-1 (limiting the Postal Service’s ability to
license its brand to private sector partners).
9
  Interview with senior Postal Service official in strategic planning, March 6, 2013.
10
   A product approval process under which new products must meet benchmarks before receiving approval to move
to the next phase of development or implementation.
11
   Interview with a former Postal Service executive who held roles in business development, strategic planning, and
ID protection, February 25, 2013.
12
   Ibid.
13
   Remarks by an experienced postal legal expert to The Future of USPS? Center for Research in Regulated
Industries, Advanced Workshop in Regulation and Competition, Washington, DC, April 12, 2013 and USPSOIG,
Revenue Sharing Agreements Audit Report, pp. 2-3.
14
   Interview with a Member of the Board of Directors, Urbana-Champaign Independent Media Center, January 30,
2013.
15
   See "Our Community Media & Arts Center,” Urbana Champaign Independent Media Center, December 8, 2010,
http://ucimc.org/content/our-community-media-arts-center.

U.S. Postal Service Office of Inspector General                                                           June 24, 2013
                                                           6
RARC-WP-13-011                                                                                  Public-Private Partnerships



could help overcome the personnel problems identified above, ensuring that qualified
and motivated staff is devoted to vetting and executing partnership agreements
expeditiously and is available to interested external parties. Such dedicated personnel
might have provided assistance in sustaining and revitalizing the EPM program, while
providing rigorous oversight of revenue collection, for example. A single office for PPPs
could implement best practices such as creating a central repository to monitor the
performance of revenue-sharing agreements. Furthermore, establishing a centralized
office could resolve a lack of unified and up-to-date guidance on strategic alliances or
partnerships, and would provide a first-stop address for potential partners.

PPPs beyond the U.S. Postal Service
Both foreign postal operators and U.S. government agencies have addressed problems
similar to the ones the Postal Service faces by using PPPs. This section presents non-
exhaustive examples of some of their strategies and tactics. (See Appendices C and D
for a more extensive review.) The categories and types of PPPs in Table 2 are useful
but are not “carved in stone” — the field is evolving and solutions are often context-
specific. For the Postal Service, there are opportunities to explore creative options
inspired by (not necessarily patterned after) some of the examples reviewed in this
section. As a unique federal entity with a large commercial presence, the Postal Service
should also consider engaging other governmental entities in partnerships by borrowing
from existing PPP models.

                           Table 2: Classification of Foreign Post and U.S. PPPs 16

                                         Cost Reduction                           Revenue Generation

                                                                             Parcel locker development and
                                                                              placement
                                    Real estate management
                                                                             Financial services at postal retail
       Tactical                     Fleet sale and leaseback                 facilities
                                     agreement
                                                                             CRADA intellectual property
                                                                              partnerships



                                    Franchising the retail postal
      Strategic                      network                                 Enhanced Use Lease
                                    Seaport concession




Experiences of Foreign Posts with Partnerships
As mail volumes decline around the world, PPPs enable posts to shift costs from fixed
to variable costs that adapt to changes in demand. For example, postal operators have
used PPPs to address the challenges of maintaining retail access and a dense delivery
16
     This classification table is based on a model developed by Jean-Philippe Ducasse and decision/analysis partners.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                              7
RARC-WP-13-011                                                                                    Public-Private Partnerships



network as required under universal service obligations, and to manage the high costs
associated with the network when these fixed costs have grown out of proportion to
revenues. 17

Real Estate Management
Like the Postal Service, many foreign postal operators have dealt with legacy real
estate holdings designed for a business model that is being made obsolete due to
declining mail volume. Over the past 30 years, they have gone through a process of
setting up separate business units to leverage their real estate holdings. According to
experts on European postal systems, the real estate unit often charges other business
units, cost centers, and shared service centers for usage of space through internal
transfer prices. This has helped improve transparency and performance accountability.
The transfer price system has also facilitated a regular review of internal lease
agreements, and has given management incentives to adapt space requirements to
changing needs based on projected volumes and budgets.

Fleet Management
Foreign postal operators have turned fleet management from a mainly technical
operation into a business function focused on maximizing usage of existing vehicles and
reducing fixed costs. One PPP approach is similar to a real estate sale and leaseback
agreement; the postal operator sells its aging vehicle fleet to a private firm which
specializes in leasing, finance and vehicle fleet management. The private firm then
leases a new fleet of vehicles to the postal operator and provides maintenance services.
Postal operators in Italy, Estonia, and the Netherlands have implemented such PPPs.
(See Appendix C for a description of their approaches.)

In this type of partnership, the postal operator may receive the following benefits:

          An immediate cash injection from the sale of their old fleet;

          Increasing the flexibility or variabilization of operational costs for the new vehicle
           fleet; and

          A modern fleet that keeps up with new automotive technologies, improves fuel
           efficiency, and meets environmental standards and requirements.

Retail Partnerships
Another strategy used by European postal operators is to establish the retail post office
business as a separate business unit, incorporating it and ensuring private sector
partners’ commitment to developing the network through joint investments or an equity


17
   In the United States as in Europe, retail post office sales generate a small proportion of total revenues. See U.S.
Postal Service, “Postal Facts, A Decade of Facts and Figures,” “Postal-Managed Retail Office Revenue,”
http://about.usps.com/who-we-are/postal-facts/welcome.htm (revenue from Postal Service owned facilities was
$10.6 billion in 2012, out of $65 billion total revenues). An evaluation by the firm decision/analysis partners confirmed
that the figure is as low or lower in Europe.

U.S. Postal Service Office of Inspector General                                                               June 24, 2013
                                                            8
RARC-WP-13-011                                                                                    Public-Private Partnerships



participation in the new entity. 18 Often, the investors have been banks engaged in the
delivery of financial services through postal retail facilities. This strategy reduces the
fixed cost burden for the postal operator, while maintaining the network’s ubiquitous
presence.

Similar to the Postal Service’s Contract Postal Units (CPUs), foreign posts also contract
with small and individual entrepreneurs to operate a postal retail facility under a
franchise agreement. The franchise generally includes usage of the postal brand,
training, postal technology, and access to the post’s management and business
systems. The agreement provides the small entrepreneur with a regular flow of clients
and visitors to whom other products and services can be offered. On the other hand,
franchising agreements with individual entrepreneurs can be more difficult to manage
and may prove riskier than other partnerships.

                                                   Table 3: Franchising
                                                                                                            19
             Case Study: Post Netherlands Transition to a Fully Franchised Retail Network

                                       Development of postal counters in retail shops. Between 1995 and 2006,
                                        most of the 2,000 post offices were closed and franchised; they were
                                        replaced with retail outlets in supermarkets, bookstores, stationers, and
                                        other retailers.
     Project Description
                                       In 2008, the Dutch Post still had 250 post offices in addition to 1,850
                                        service points. It decided to extend to 2,600 the number of outlets and to
                                        close all remaining self-standing post offices within the next three years.
                                        The last one was closed in 2011.

                                       Long process from fully owned to fully franchised network allowed for a
                                        smooth transition, reducing any harm to, and complaints from, from the
                                        general public and stakeholders.
                                       Added customer convenience (more access points, longer opening
      Main Business                     hours).
     Objectives/Results
                                       Reduction of fixed costs consistent with mail volume declines.
                                       Closure of the remaining 250 post offices in 2008-2011 was expected to
                                        contribute from 2013, a structural annual operational cost saving of 45
                                        million euros compared to 2007.




18
   In order to establish its retail facilities as a separate unit, the Postal Service would have to decouple retail from
delivery, and recommended by the OIG in Retail and Delivery: Decoupling Could Improve Service and Lower Costs,
Report No. RARC-WP-11-009, September 22, 2011, https://www.uspsoig.gov/foia_files/rarc-wp-11-009.pdf.
19
   PostNL, “TNT Post to strengthen retail network,” March 5, 2008, http://www.postnl.com/about/historical-
information/newsitem.aspx?key=573478; PostNL, Business Developments, Annual Report 2012,
http://annualreport2012.postnl.com/report-of-the-board-of-management/mail-in-the-netherlands/business-
developments; and de Volkskrant, Small post offices are Bruna stores, December 12, 1995,
http://www.volkskrant.nl/vk/nl/2844/Archief/archief/article/detail/408833/1995/12/12/Kleine-postkantoren-worden-
Bruna-winkels.dhtml.

U.S. Postal Service Office of Inspector General                                                               June 24, 2013
                                                              9
RARC-WP-13-011                                                                                  Public-Private Partnerships



Franchising strategies such as the ones used in Australia and the Netherlands are more
comprehensive than the Postal Service’s CPU program. The Dutch Post (now PostNL)
is a good example of a post that over time used these strategies to drastically reduce
fixed network costs. Over 15 years, PostNL has evolved from being fully owned-and-
operated by its mother company to a fully franchised retail network.

As e-commerce volumes grow, postal operators have set up dedicated parcel delivery
networks. Many posts are testing and deploying 24/7 self-service parcel lockers in order
to reduce the cost of failed deliveries and to increase customer convenience. To finance
these new postal infrastructure components and to limit fixed costs, several PPPs have
been used in Europe.

                                         Table 4: Retail Location Partnerships
                                                                                          20
                             Case Study: Itella (Finland) Parcel Locker Partnership

                                    Cooperation agreement between Itella (Finnish post) and retail chain
                                     Kesko on the installation of Smartpost automatic parcel points in all (75) of
                                     Kesko’s current “K-Citymarkets” by the end of 2013.
                                    In 2012, Itella signed a cooperation agreement with another major retail
                                     chain, S Group, which will see up to 350 parcel terminals established in
Project Description                  the retailer’s supermarkets around Finland by 2015.
                                    The post provides the equipment, while the supermarket provides space,
                                     maintenance, and servicing of the parcel terminal.
                                    This agreement is part of Itella’s strategy to deploy parcel terminals, which
                                     started with the installation of 50 parcel points in 2011.



 Main Business                       Making terminals quickly available to a large number of customers.
Objectives/Results                   Customer convenience (for pick up and return of e-commerce packages).




20
   See Itella, “Smart automatic parcel will be K-city markets,” March 30, 2012,
http://www.posti.fi/tiedotteet/2012/20120330_Smartpostit_Citymarketeihin.html and Post and Parcel, “Itella deal to run
parcel terminals in Finnish supermarkets,” August 14, 2012, http://postandparcel.info/49924/news/companies/itella-
deal-to-run-parcel-terminals-in-finnish-supermarkets/.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                             10
RARC-WP-13-011                                                                                 Public-Private Partnerships



U.S. Federal and State Government Agencies’ Experiences with PPPs
Government agencies in the United States have significantly increased their usage of
PPPs as they deal with aging infrastructure and resource constraints. 21 The most
frequent users of PPPs are state departments of transportation; toll roads are among
the most high-profile PPPs. This section will focus on limited examples that could be
adapted to the Postal Service’s needs under the right circumstances (More information
and case studies can be found in Appendix D).

Monetizing Underused Assets
Changing demand patterns and policy directions lead many agencies to consider
alternative ways to monetize assets they no longer use or just partially use, but which
they cannot or do not wish to sell. PPPs can generate financial value from underutilized
assets by providing new sources of revenue, or new sources of financing backed by the
market value of these assets.

Monetizing Real Estate
Several models can be considered for funding construction or renovations on
underutilized federal property. The Enhanced Use Lease (EUL) allows a private
developer to lease underutilized property, with rent paid by the developer in the form of
cash or in-kind services, most often tied to the agency’s programs. The National
Aeronautics and Space Administration (NASA) uses EULs to attract private interest and
investment in order to further its mission, such as by using private sector assistance to
meet renewable energy goals; to extend NASA’s research capabilities; to improve
infrastructure; and to generate revenue. 22 The Postal Service has previously entered
into EULs as well. 23




21
   See Fawn Johnson, “Why you won’t own your road,” National Journal, March 16, 2013,
http://www.nationaljournal.com/magazine/why-you-won-t-own-your-road-20130516.
22
   NASA, NASA Desk Guide for Enhanced Use Leasing of Real Property, February 2010,
http://www.hq.nasa.gov/office/codej/codejx/Assets/Docs/EUL_Desk_Guide_Feb_2010.pdf, pp. 2-3, and NASA Office
of Inspector General, NASA’s Infrastructure and Facilities: An Assessment of the Agency’s Real Property Leasing
Practices, August 9, 2012, http://oig.nasa.gov/audits/reports/FY12/IG-12-020.pdf, pp. 24-35.
23
   GAO Report No. GGD-99-23 contains a description of the EULs relating to the Grand Central Station Post Office,
New York, NY, 1987 (99 years lease) and the Rincon Center Post Office, San Francisco, CA, 1985 (65 years lease).
GAO, Public-Private Partnerships: Key Elements of Federal Facility and Building Partnerships, February 3, 1999
http://www.gao.gov/products/GGD-99-23, pp. 7, 10, and 16. However the GAO in Report No. GAO-09 283-R noted
that the Postal Service had “little incentive to enter into EULs and rarely [did] so in large part because it had more
authority than other agencies to sell unneeded property outright and use the proceeds for any mission related
purpose. GAO, Federal Real Property: Authorities and Actions Regarding Enhanced Use Leases and Sale of
Unneeded Real Property, GAO-09-283, February 17, 2009, http://www.gao.gov/products/GAO-09-283R, p. 16. Even
after taking these comments into account, there are other reasons to use EULs. Leveraging private sector innovation
is one such reason. In addition, even though the Postal Service has the legal authority to dispose of excess
properties, it faces a number of practical barriers to doing so. Because of these barriers, the Postal Service must
consider other options for making efficient use of real property.

U.S. Postal Service Office of Inspector General                                                            June 24, 2013
                                                         11
RARC-WP-13-011                                                                                    Public-Private Partnerships



                                                  Table 5: Enhanced Use Lease
                                                                                        24
                                    Case Study: Yuma, AZ, Desert Proving Ground

                                    General Motors (GM) turned unused Army-owned land into a hot weather
                                     vehicle test facility for joint GM/Army use.
                                    50-year Enhanced Use Lease of 2,400 acres adjacent to Army’s vehicle test
                                     facility
        Project
                                    GM financed, built, and operates new testing facility ($100 million) on secure
      Description
                                     Army-owned land.
                                    GM provides in-kind maintenance and engineering services in lieu of lease
                                     rents.
                                    Facility is used by GM and the Army for individual and joint projects.

                                    Army monetizes unused land.
                                    Generates operational synergies between GM as a supplier and the Army.
  Main Business
                                    Army receives services without tapping into federal funds.
 Objectives/Results
                                    GM also benefits from pre-existing, secure environment.
                                    Local community benefits — 300 jobs created.



Infrastructure Financing and Operational Effectiveness
In many of the most high-profile uses of PPPs, new costly infrastructure is funded by the
private sector. To finance a seaport in Baltimore (see Table 6), a private operator
retained revenue from the core terminal operations, and therefore had an incentive to
develop the business further. In other scenarios, the private party derives its revenues
from annual performance-related fees made by the public agency. The fee-for-
performance approach requires a detailed definition of the quality indicators and
performance targets needed to help the public agency monitor compliance with service
level agreements. Such contracts can provide some assurance of effective
management of the facility by the private sector.
It should be noted, however, that experts indicate the “financing” component should not
be the sole justification of a PPP, since in the long run, private funds usually have
higher financing costs. Many other elements are considered in the screening process.
These include the public agencies’ recognition that private management would achieve
operational gains thanks to the application of specialized know-how. For example, the
private sector partner may provide specific marketing, sales, and operational skills that
the state agency did not possess. The state agency could provide oversight and
governance to enforce a pay-for-performance scheme.

24
   U.S. Army Enhanced Use Lease Program, Yuma Proving Ground, AZ – Army Enhanced Use Leasing Use
and Case Study, http://eul.army.mil/YumaGSA_Award.pdf, U.S. Army, Yuma Proving Ground: Yuma, Arizona,
http://eul.army.mil/ProjectSheets/yuma.htm, and NCPPP, Yuma Desert Proving Grounds: Yuma, Arizona,
http://www.ncppp.org/resources/case-studies/public-safety/yuma-desert-proving-grounds-yuma-arizona/.



U.S. Postal Service Office of Inspector General                                                               June 24, 2013
                                                              12
RARC-WP-13-011                                                                                   Public-Private Partnerships



                                      Table 6: Long-term Lease and Concession
                                                                                         25
                                      Case Study: Baltimore Seagirt Marine Terminal

                                       50-year lease and concession to private operator Ports America (Highstar)
                                        to operate and maintain a marine terminal.
                                       Ports America built a new container berth and funded new construction. It
         Project                        also made a $100 million upfront cash payment and makes an annual
       Description                      payment to the state; it derives its income from the revenue generated by
                                        the Seagirt business.
                                       State agency retains ownership and responsibility for security, while private
                                        partner keeps revenue from the terminal business.

                                       State should save $200 million in capital expenditure and $600 million in
                                        operating and maintenance costs over the lifetime of the project.
  Main Business                        Project is estimated to generate nearly $16 million per year in new tax
 Objectives/Results                     revenue.
                                       Project created 2,700 one-time construction jobs, plus an estimated 3,000
                                        jobs directly and indirectly through new business.



Promoting Innovation through Intellectual Property
PPPs can accelerate the launch of new services and grow a public agency’s ability to
innovate. The Cooperative Research and Development Agreement (CRADA) is a
frequently used tool created in 1986 to allow the private sector to leverage government-
owned intellectual property and publicly funded research. CRADAs are used, for
example, to allow private firms to commercialize research developed by government-
owned national laboratories. The government benefits by collecting direct payments or
royalties. In 2009 more than 4,000 such agreements were active across the federal
government. NASA plans to increase its use of CRADAs in order to stimulate innovation
and commercialization of new technologies. 26

Lowering the Cost of Capital to Support PPPs
Since the late 1980s Congress and the federal executive branch have proactively
supported the development and implementation of public-private partnerships to finance
and build public sector projects. Several federal credit assistance and financing tools
encourage states to pursue private participation in transportation infrastructure. At least
32 state governments have established infrastructure banks to support surface
transportation projects. The private activity bonds (PABs) program provides private
developers access to tax-exempt interest rates, which lower the cost of capital

25
   See Maryland Port Administration, Seagirt Marine Terminal,
http://www.mpa.maryland.gov/_media/client/terminals/smt.pdf, and WBAL TV News, Agreement Brings 5,700 New
Jobs to Baltimore Port, http://mpa.maryland.gov/_media/client/News-Publications/2009/11202009press.pdf.
26
   NASA, Plan for Accelerating Technology Transfer at NASA, October 31, 2012,
http://www.nasa.gov/pdf/709314main_NASA_PLAN_FINAL.pdf, p. 16.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                              13
RARC-WP-13-011                                                                              Public-Private Partnerships



significantly. The Transportation Infrastructure Finance and Innovation Act (TIFIA) of
1998 established a credit program which secures loans or provides loan guarantees for
major transportation PPPs. Numerous state and local governments have used similar
tactics.

Lessons Learned from Foreign Posts and U.S. Agencies
The viability of a PPP is partly driven by industry-specific factors such as trends for
long-term demand and the variability of revenue streams. Lessons learned from PPPs
in the United States and abroad, however, point to common concerns and success
factors which affect the ability to engage potential partners, align public agency
stakeholders, and build and oversee sustainable partnerships. Experts warn PPPs
should not be pursued solely for short-term financial gain. They often involve higher
financing costs and service payments to private sector partners. Consideration of these
long term costs should not be obscured by the possibility of an initial financial boost.

Other specific concerns expressed by participants and observers in PPPs include

          Loss of public control and flexibility, by constraining the government’s ability to
           make further policy decisions related to property covered by a PPP.

          Loss of future public revenues, particularly for PPPs relating to toll roads, which
           have been criticized for trading valuable future toll revenue for upfront payments,
           potentially short-changing the public sector over time.

          Limited accountability and transparency.

          Concerns about foreign investments in sensitive areas. 27

Governments can mitigate these concerns through careful preparation and
consideration of the tools and factors outlined below.

Dedicating Expert Resources to PPPs
The preparation and approval of PPPs requires complex coordination between different
agencies and levels of government, and a mix of financial, legal, technical, project
management, and communications skills. To facilitate
these tasks, several U.S. states have established PPP          Several U.S. states and
offices as public agencies, government-owned                   foreign governments
corporations, or advisory boards, primarily in the last few    have set up dedicated
                                                                                 PPP offices.




27
   See Fawn Johnson, National Journal, Why you won’t own your road, Fawn Johnson, National Journal, Oops!
Judge slams local public-private deal, May 13, 2013, http://transportation.nationaljournal.com/2013/05/oops-judge-
slams-local-publicp.php, Charles Chieppo, GOVERNING, When public-private partnerships are a bad idea, March 13,
2013, http://www.governing.com/blogs/bfc/col-public-private-partnership-cincinnati-parking-lease.htmland The
Canadian Council for Public-Private Partnerships, Why Choose PPPs, http://www.pppcouncil.ca/resources/about-
ppp/why-choose-ppp.html.

U.S. Postal Service Office of Inspector General                                                         June 24, 2013
                                                       14
RARC-WP-13-011                                                                              Public-Private Partnerships



years. 28 Most of these offices are located in the state’s department of transportation, as
transportation projects are often states’ priority area for PPPs. Experience from public
agencies indicates that building expertise in PPPs involves a long educational process,
in which the role of specialized external PPP consultants decreases over time as in-
house skills develop. 29

The national authorities of at least 40 countries have set up PPP offices. 30 In addition,
the European Investment Bank and European Commission launched a European Public
Private Partnership Expertise Center to share experiences, expertise, analyses, and
best practices among national PPP authorities. The functions of PPP units include
policy formulation and coordination, quality control, technical assistance,
standardization and dissemination, and promotion of PPPs. 31 Experts who have studied
PPPs and strategic alliances, including the Postal Service FedEx alliance, note there
are significant benefits from the simple act of maintaining a single list or map of PPPs
(and other types of partnerships) for an organization, such as facilitating the
coordination of standards and priorities among different functions and sharing best
practices. 32

Value for Money (VfM) Analysis Prior to Executing a PPP Agreement
Some high-profile PPPs around the world, particularly those involving large
infrastructure investments, have allegedly turned out to be poor deals for the public. In
some cases the public sector entity avoided initial outlays, but did not adequately
assess long-term value or risk, such as paying high interest rates to a private investor.
VfM analysis is intended to ensure that the public sector is receiving the best possible
value for its investment from a given procurement approach. The tool has been used
most often in Europe, but it is used increasingly by American state departments of
transportation in evaluating infrastructure PPPs. In a VfM analysis, the public agency
compares the life cycle cost of an investment through a traditional procurement, often
called a public sector comparator (PSC), with the life cycle costs of pursuing the project
through a PPP. 33

The government scrutinizes the PSC using a discounted cash flow analysis to project
the net present value (NPV) of expected cash flows. The discount rate used in this
analysis should reflect the government’s time value of money in addition to a risk

28
   Brookings-Rockefeller Project on State and Metropolitan Innovation, Moving Forward on Public Private
Partnerships: U.S. and International Experience with PPP Units, December 2011,
http://www.brookings.edu/~/media/files/rc/papers/2011/1208_transportation_istrate_puentes/1208_transportation_istr
ate_puentes.pdf, pp. 12-15.
29
   Interview with Richard Norment, Executive Director, NCPPP, October, 31, 2012.
30
   See World Bank Public-Private Partnership in Infrastructure Resource Center, PPP Units Around the World,
http://ppp.worldbank.org/public-private-partnership/overview/international-ppp-units.
31
   Brookings-Rockefeller Project, Moving Forward on Public Private Partnerships pp. 6-11.
32
   Dr. Oded Shenkar and decision/analysis partners, personal communication, October 12, 2012.
33
   Federal Highway Administration, Value for Money for Public Private Partnerships: A Primer, September 11, 2012,
http://www.fhwa.dot.gov/ipd/forum/vfm_for_ppps; Claire Goldbach, Valerie Goldman, Richard Philips, and Ashlyn
Seymour for The National Council for Public Private Partnerships, Public Cost Comparator for Public-Private
Partnerships, April 2012, http://www.ncppp.org/wp-content/uploads/2013/03/PS-042711-PublicCostComp-Paper.pdf,
pp.1-2, 6-7; and NCPPP, Testing Tradition: Assessing the Added Value of Public-Private Partnerships
http://www.ncppp.org/wp-content/uploads/2013/03/WhitePaper2012-FinalWeb.pdf, pp. 8-11.

U.S. Postal Service Office of Inspector General                                                         June 24, 2013
                                                       15
RARC-WP-13-011                                                                             Public-Private Partnerships



premium for the scope and likelihood of occurrence of risks involved in the project, such
as the inflation costs, possible delays, and expected demand. 34 The PSC analysis
should take into account the fact that the public sector is taking on more risk than with
the PPP approach. The public agency then attempts to calculate the NPV of the PPP
option to create an “apples-to-apples” comparison. The expected value of the PPP
option is derived in a similar manner to the PSC, while accounting for any risk
transferred to the private sector and payments made to the partner.

In addition to carefully quantifying costs, VfM analysis looks beyond the lowest cost bid
and helps decision-makers determine value to the public over the lifetime of the
agreement. The Postal Service does not formally use VfM analysis, but as a public
entity with significant ongoing commercial activities, has access to relatively
sophisticated evaluation approaches. Postal Service officials involved in PPPs might
consider studying VfM practices as an additional tool for financial analysis. (See
Appendix E for additional information on VfM,)

Managing Risk
Public agencies must build consensus on the levels and types of risk they are ready to
transfer to a private partner over the long run. Transferring that risk will not fully shield
them from negative external events such as private partners declaring bankruptcy.
Agencies also need to convey the message that some government funding may still be
needed to complement private financing.

Agencies should develop a good understanding of private partners’ selection criteria for
a PPP, and strike a balance between protecting the public interest and ensuring the
transaction is executable and financeable. The higher the risk transferred to the private
partner, the more difficult the financing of the project. Criteria used by private partners
include the level, predictability, and stability of cash flow streams; the impact of new
laws or regulations; barriers to entry by potential competitors; ability to introduce
process and service innovation throughout the project lifecycle; and the desired
minimum rate of return. 35

Managing Stakeholders
For PPPs to gain public acceptance, public agencies must address stakeholders’
concerns, which most often revolve around a few key points: loss of public control,
generation of excessive private profits at the public’s expense, and questionable value
for taxpayers’ money. Such concerns can be addressed partly through careful asset
valuation and revenue-sharing agreements in which the public agency receives a
portion of ongoing revenues from operations. The public agency also needs to consider


34
   The idea that money available at the present time is worth more than the same amount in the future due to its
potential earning capacity, http://www.investopedia.com/terms/t/timevalueofmoney.asp.
35
   See e.g. Laurene B. Mahon, Tom Osborne, “Public-Private Partnership Policy,” UBS, pp. 7,11 (presentation to
the State of Maryland, Blue Ribbon Commission on Transportation Funding, January 4, 2011),
http://www.mdot.maryland.gov/Office_of_Planning_and_Capital_Programming/Blue_Ribbon/Documents/Meeting_Ag
enda_010411/BRC_Summary_Document_010410.pdf.

U.S. Postal Service Office of Inspector General                                                        June 24, 2013
                                                      16
RARC-WP-13-011                                                                         Public-Private Partnerships



keeping oversight responsibilities over private partners’ products (including prices) and
performance (through pay-for-performance mechanisms) under the agreement.

In a context in which PPPs are often seen as an easy source of capital, it is also
important for public agencies to manage stakeholders’ expectations. For example,
stakeholders might be overly optimistic that savings in upfront capital costs are sufficient
by themselves to justify a PPP.

Managing the Overall PPP Process Effectively
A well-organized, well-managed process will give potential partners confidence in the
public agency’s ability to meet deadlines and collaborate effectively over the lifetime of
the project. Clear, thorough requests for proposal, design specifications, partnership
agreements, and performance targets will ward off delays, frustrations, cost escalation,
and disputes over contract execution. In addition, the public agency should have an exit
strategy for a PPP, including defined triggers for when to exit, and agreed-upon dispute
resolution mechanisms.

Future Opportunities for the Postal Service
Through PPPs, there are real opportunities for the Postal Service to earn income from
its real estate portfolio, upgrade its infrastructure, benefit from private sector innovation,
and make its cost structure more variable so costs decline with volume. While it is not
feasible to identify all the possible PPPs that the Postal Service could develop, a few
broad categories stand out as potential high value opportunities.

             Table 7: Classification of Future PPP Opportunities for the Postal Service

                                          Cost Reduction                 Revenue Generation

                                                                   IP licensing & digital partnerships
                                                                    o Revitalize the Electronic Postmark
                                                                        program
       Tactical                  Fleet management
                                                                    o Leverage website through affiliate
                                                                        agreements
                                                                   Sale and leaseback of real estate


                                 Sale and lease back of real
                                                                   Real estate business unit
      Strategic                   estate
                                                                   Logistics partnerships
                                 Retail partnerships



Upgrading and Modernizing the Postal Service’s Infrastructure
Postal operators and other public organizations have leveraged PPPs to pursue internal
operational improvements in facilities and fleet management. The Postal Service has
the opportunity to adapt these partnership models to address needs that have been
identified by Postal Service management and several oversight bodies including


U.S. Postal Service Office of Inspector General                                                    June 24, 2013
                                                           17
RARC-WP-13-011                                                                         Public-Private Partnerships



Congress, the OIG, and the Government Accountability Office (GAO). These priorities
include reconfiguring the Postal Service’s processing and retail networks, consolidating
administrative offices, and replacing an aging vehicle fleet.

Retail Partnerships
The Postal Service has attempted several times to rationalize its retail infrastructure
with mixed results. Stakeholder opposition and regulatory hurdles have prevented
aggressive consolidation. Large-scale use of PPPs is one way to reduce fixed costs
while meeting consumer needs for physical retail access. Franchising is an alternative
to maintaining or building a chain of postal retail outlets that reduces investment, labor
costs, and fixed assets costs. (See Table 3.) Franchising addresses the problem of
aligning retail infrastructure and labor costs with declining volumes, shifting the risk of
unpredictable changes in volume to private partners. In addition, the Postal Service
could accelerate the pace of existing initiatives to provide services through partnerships
with private retailers such as grocery stores. These approaches will allow the Postal
Service to continue serving all Americans, while realigning its physical retail portfolio to
reduce the financial risks and fixed costs of owning retail facilities.

Fleet Management
The Postal Service has an aging fleet of delivery vehicles and lacks the capital to
replace the vehicles. Maintenance costs are increasing. Exploring the market for a sale
and leaseback agreement is one avenue for improving the fleet. European postal
operators have used this approach to receive immediate cash from the sale of their old
fleets, increase the flexibility or variabilization of operational costs for the new vehicle
fleet, and obtain the operational benefits of a modern fleet. (See Tables 12 and 13 in
Appendix C.) In addition to the sales and leaseback, other forms of leases can reduce
fixed costs. In an operational lease arrangement, the Postal Service would obtain as-
needed access to modern vehicles and avoid taking on fixed costs (while paying a
premium to do so).

Optimizing the Processing Network
The Postal Service has a nationwide network of more than 400 processing facilities of
varying ages and configurations. An OIG study found that the number of processing and
distribution centers (P&DCs), the key nodes in the network, could be reduced from over
260 to 135. 36 While most Postal Service initiatives are likely to require shutting down or
moving operations among certain existing facilities, optimizing the P&DCs might require
building or refurbishing more standardized processing centers in more strategic
locations. In the medium to long term, optimization would yield substantial savings, but
the Postal Service currently lacks capital, which could hinder its ability to make upfront
investments in facility design and construction. PPPs could allow the Postal Service to
obtain financing as well as design and building assistance from private partners. In
addition, the Postal Service could consider obtaining private sector assistance with
certain operations in the optimized network. The current worksharing program is a step

36
  USPSOIG, A Strategy for a Future Mail Processing and Transportation Network, Report No. RARC-WP-11-006,
July 6, 2011, https://www.uspsoig.gov/foia_files/rarc-wp-11-006.pdf, pp. i-ii.

U.S. Postal Service Office of Inspector General                                                    June 24, 2013
                                                    18
RARC-WP-13-011                                                                             Public-Private Partnerships



in this direction, as it allows private sector entities to perform certain mail processing
and transportation activities which they can do more efficiently than the Postal Service.
New Products and Revenue Generation
Through partnerships with private vendors and by utilizing a robust platform business
strategy, the Postal Service could develop and market new products and services that
reflect an evolving mission to “bind the nation together” in a world where people are
increasingly communicating digitally.

The Postal Digital Platform: Innovation and Intellectual Property Partnerships
As the OIG has written previously, the Postal Service could build two foundational
layers that would constitute the building blocks of a postal digital platform: a digital
identity and authentication layer and the secure
messaging layer (eMailbox), which would link a person        The Postal Service can
                                                     37
or business’s physical address to a digital address.         take advantage of its
                                                                           potential as a digital
The Postal Service could invite private sector               platform though PPPs.
innovators to build and contribute postal,
governmental, and commercial applications on the platform. A number of innovative
companies offer solutions that integrate, or could integrate, legacy postal applications
and have physical and digital components. Specific opportunities include digital Collect
on Delivery (COD) and digital escrow; egovernment; identity services such as ID
validation and in-person proofing, and digital, hybrid and reverse hybrid mail services.

Intellectual property (IP) could be a central issue as the Postal Service attempts to
partner with vendors in the technology arena by licensing its intellectual property to third
parties or vice versa. The OIG found in a series of audits that the Postal Service does
not manage its portfolio of more than 750 patents to maximize commercial
opportunities. A September 2012 paper calls on the Postal Service to “look towards
partnerships for co-developing systems and services where IP can be generated and
leveraged,” and to monetize its patent portfolio. 38 As a platform sponsor, the Postal
Service could license its IP or let private developers build on it to develop services that
would generate new revenue streams for the Postal Service.

The nature of the EPM and a brief scan of online market conditions indicate that EPM
could be a lucrative example of such a service. The EPM extends the trust and
assurance provided by the traditional physical postmark, producing an auditable time-
and-date stamp on electronic information. The EPM provides evidence that the content
of a document or file existed at a specific date and time, and protects the integrity of the
document or file by ensuring that it cannot be altered without detection. Early EPM
licensees paid the Postal Service quarterly fees for the right to market the EPM to
several large companies, such as utility providers, who were interested in securing bill

37
   USPSOIG, The Postal Service’s Role in the Digital Age Part 2: Expanding the Postal Platform, Report No.
RARC-WP-11-003, April 19, 2011, https://www.uspsoig.gov/foia_files/rarc-wp-11-003.pdf, pp. 11-13.
38
   John Callan, John Cronin, and Nathan Doudera, “Can Intellectual Property Save the USPS?” Post & Parcel,
September 2012, http://postandparcel.info/files/2012/09/Can-Intellectual-Property-Save-the-USPS.pdf.

U.S. Postal Service Office of Inspector General                                                        June 24, 2013
                                                       19
RARC-WP-13-011                                                                            Public-Private Partnerships



presentment and similar communications with customers. 39 There is a large and
growing market for ensuring the security of data and transactions on the Internet.
E-commerce sales totaled more than $225 billion in 2012, while worldwide e-commerce
sales are over one trillion dollars. 40 Financial service companies, utilities, and
consumers continue to move toward online bill presentment and payment. The EPM is a
service that the Postal Service could offer to these markets. If the EPM were used for
even a small portion of online transactions, the Postal Service and private sector
partners could earn significant revenues while providing consumers and citizens with a
valued service.

Logistics
The explosion in e-commerce parcels which is flooding postal networks is just one
symptom of a global logistics revolution characterized by increasing globalization,
dispersed manufacturing, and the need for speed in getting products into the hands of
consumers. The global logistics revolution provides great opportunities for the Postal
Service — facilitating commerce in this new age requires qualities that are core
capabilities for the Postal Service, including ubiquity and efficiency in the first and last
mile. Yet, in order to capture all of the opportunities present in this revolution, the Postal
Service will need to consider partnering with private sector partners with expertise in
logistics issues such as network design, routing protocols, and global trade flows. In
such partnerships, the Postal Service could provide pickup in the first mile, delivery in
the last mile, storage in postal facilities, and extensive retail access, while private
partners could handle online sales, long-haul transportation, information technology
services, and technical expertise in logistics planning and warehousing.

Real Estate Monetization
The success of strategies pursued by other postal operators, and the sheer value and
size of the Postal Service’s real estate holdings, call for consideration of real estate
management as a business line in itself with a mission to optimize usage and value
creation. Many postal operators have separated the operation of fixed real estate assets
                               for postal needs from financial asset management,
   The Postal Service has      recognizing the latter requires different competencies and
   real estate holdings        justifies a separate business unit. A further step consists of
   with a book value of        including in the financial performance of the real estate
   $29 billion, with a         business unit the fair market price of the usage of the fixed
   market value that           assets (transfer prices). The Postal Service has a large
   could be much higher.       portfolio of fixed assets such as real estate, vehicles and
                               technology, which may not be used optimally. Several
recent reports have identified real estate, in particular, as being underutilized. According
to a recent GAO report the Postal Service owns more square footage than any civilian

39
    USPSOIG, Management Advisory – Electronic Postmark Program License Fees, Report No. MS-MA-10-001,
September, 2, 2010, https://www.uspsoig.gov/foia_files/ms-ma-10-001.pdf, pp. 1-3 and 6.
40
     Katie Deatsch, “E-commerce grows 16% in 2012,” Internet Retailer, February 15, 2013,
http://www.internetretailer.com/2013/02/15/e-commerce-grows-16-2012 and eMarketer, “Ecommerce sales topped $1
trillion for first time in 2012,” http://www.emarketer.com/Article/Ecommerce-Sales-Topped-1-Trillion-First-Time-
2012/1009649.

U.S. Postal Service Office of Inspector General                                                       June 24, 2013
                                                      20
RARC-WP-13-011                                                                             Public-Private Partnerships



federal agency, including the General Services Administration. The Postal Service owns
about 8,600 properties, totaling about 200 million square feet of interior space. The OIG
estimates that Post Offices have 24 percent excess space, or 67 million interior square
feet. 41 Total real estate holdings are worth $29 billion, based on historical book value. 42
The OIG estimates the market value to be $85 billion. 43

Excess space is found in a variety of Postal Service operations. Both the OIG and GAO
have identified significant underutilized space in Post Offices and processing facilities. 44
Furthermore, at approximately 80 percent of Postal Service retail facilities, revenues are
insufficient to cover costs. 45 Both oversight agencies have suggested that the excess
property in retail facilities could support egovernment initiatives, retail kiosks and
computer terminals, bill payment, and similar revenue-generating operations. 46

Current market trends and corporate strategies are likely to exacerbate the excess
space issue. Mail volume continues to decline, reducing the need for processing,
sorting, and retail space. To adjust to declining volume, the Postal Service is
undertaking the Delivery Unit Optimization (DUO) initiative. DUO involves relocating
letter carriers out of local Post Offices and consolidating them into centralized delivery
offices. 47 The existing retail operation will require less space and the office could then
be downsized to a smaller space nearby. 48 The Postal Service has consolidated over
1500 facilities since 2011 under DUO. 49

The Postal Service has the legal authority to pursue a number of strategies to address
overcapacity. It is authorized to hold, sell, lease or otherwise dispose of its property. 50
So far, the Postal Service has identified some of its underutilized space and partnered
with federal agencies such as the Internal Revenue Service (IRS) to utilize some excess
properties; retained a national real estate firm to help with property management; and
partnered with a few private and public sector parties to dispose of and/or monetize
these assets. While the Postal Service can and should sell excess property, experience
has demonstrated that the Postal Service faces practical difficulties in disposing of
property, making this strategy infeasible as the sole manner of dealing with excess real




41
   USPSOIG, Nationwide Facility Optimization Audit Report, Report. No. DA-AR, 11-009, August 26, 2011,
http://www.uspsoig.gov/foia_files/DA-AR-11-009.pdf.
42
   USPSOIG, Leveraging Assets to Address Financial Obligations, Report No. FF-MA-11-118, July 12, 2011,
https://www.uspsoig.gov/foia_files/ff-ma-11-118.pdf.
43
   USPSOIG, Pension and Retiree Health Obligations Management Advisory Report, Report No. FT-MA-12-002,
June 18, 2012, https://www.uspsoig.gov/foia_files/ft-ma-12-002.pdf, p. 1.
44
   See, USPSOIG, Nationwide Facility Optimization, and GAO, Federal Real Property: Strategic Partnerships and
Local Coordination Could Help Agencies Better Utilize Space, Report No. GAO-12-779, July 2012,
http://www.gao.gov/assets/600/592992.pdf, p. 9.
45
   GAO, Federal Real Property, p. 8.
46
   Ibid.
47
   USPSOIG, Delivery Unit Optimization Initiative Audit Report, Report No. MS-AR-13-001, December 6, 2012,
https://www.uspsoig.gov/foia_files/ms-ar-13-001.pdf, p. 5.
48
   Ibid.
49
   Ibid.
50
   39 USC § 401(5).

U.S. Postal Service Office of Inspector General                                                        June 24, 2013
                                                       21
RARC-WP-13-011                                                                                  Public-Private Partnerships



estate under current operating conditions. 51 In order to be proactive in dealing with
excess property, rather than waiting for all external barriers to be eliminated, the Postal
Service must consider other options such as PPPs.

Some additional real estate related PPPs the Postal Service could consider, where
consistent with its overall business strategy and plans for the network, include

          The sale and leaseback of a select portfolio of properties, such as high-value city
           Post Offices;

          The sale and leaseback of large processing centers where vacant space can be
           leased for postal-related activities, such as the warehousing of e-commerce
           packages and print shop operations;

          Leasing space at facilities to telecommunications firms that wish to reach rural
           consumers without incurring substantial new infrastructure costs; 52 and

          A formal and comprehensive Post Office franchising program as part of a general
           policy to dispose of owned-and-operated post offices, similar to the programs
           used by some foreign posts.

According to European postal experts, further development and buildup of the asset
management function within the Postal Service and subsequent internal transfer pricing
for usage of assets could contribute to improving the financial performance,
transparency, and accountability of management. 53 It would also help in assessing the
rationale and value of any PPPs involving the sharing of assets. The OIG has
recommended that the Postal Service set up policies and systems to identify areas in
facilities that are actually usable and suitable for leasing arrangements. 54 This step will
help the Postal Service in marketing and monetizing its excess assets.




51
   See USPSOIG, Barriers to Retail Network Optimization, Report No. RARC-WP-11-005, June 9, 2011,
https://www.uspsoig.gov/foia_files/rarc-wp-11-005.pdf; GAO, Challenges to Restructuring the Postal Service’s Retail
Network, Report No. 12-433, April 17-2012, http://www.gao.gov/assets/600/590170.pdf; and GAO, Federal Real
Property. Some observers have advocated an approach which focuses only on selling unneeded facilities, but the
OIG and GAO reports and several historical experiences suggest this is unlikely to result in aggressively rationalizing
postal networks under the current policy and political framework. For a concrete example, the Postal Service recently
deployed the POSt plan, which involves reducing the hours of retail facilities which generate little revenue, after
stakeholder resistance to closing such facilities. While the POSt plan is expected to save money, it actually reduces
real property utilization by definition. If stakeholder views are going to influence such strategic decisions, then a
realistic approach to real estate management should take this into account, rather than being designed in a vacuum,
with the potential for rapid abandonment when faced with significant opposition.
52
   See USPSOIG, 21st Century Post Office: Aligning with the National Broadband Infrastructure Initiative, Report No.
DA-MA-12-2012, January 23, 2012, http://www.uspsoig.gov/foia_files/DA-MA-12-002.pdf, which recommends that the
Postal Service partner with federal agencies and private sector Internet Service Providers to host broadband
infrastructure, particularly for the provision of broadband in unserved and underserved rural communities through Wi-
Fi hotspots.
53
   Analysis of Hans Boon and decision/analysis partners.
54
   USPSOIG, Nationwide Facility Optimization, pp. 2-4.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                         22
RARC-WP-13-011                                                         Public-Private Partnerships



Conclusion
The Postal Service can take advantage of PPPs to address many of its short and long-
term problems. PPPs can reduce costs and make them more variable so they decline
with volume, and allow the Postal Service to leverage the skills of partners to help the
Postal Service meet its mission of binding the nation together, even as that misssion
requires more technological capabilities. While the Postal Service has engaged
succesfully in several PPPs, there is room for improvement. Foreign postal operators
and other government agencies in the U.S. have used PPPs for long-term infrastructure
financing, cost containment, and public policy needs. The experiences of the Postal
Service and these other public sector organizations have shown that by following a set
of best practices, public agencies can improve the likelihood of success with PPPs.
Chief among these lessons is the value of establishing a high-level, centralized PPP
office to champion and standardize best practices, and to build up the skill sets
necessary to negotiate and implement PPPs.




U.S. Postal Service Office of Inspector General                                    June 24, 2013
                                                  23
RARC-WP-13-011                                                                                      Public-Private Partnerships



Appendix A PPP Definitions and Typologies
NCPPP definition: “[A] contractual agreement between a public agency (federal, state or
local) and a private sector entity. Through this agreement, a certain range of skills and
assets of each entity (public and private) are shared in delivering a service or facility for
the general public. In addition to sharing resources, each party shares in the risks and
rewards potential in the delivery of the service and/or facility.” 55

The NCPPP definition puts the emphasis on the “sharing” dimension. As a result

          The traditional procurement for goods and services, which does not involve the
           sharing of assets or risks, is excluded, as is outright privatization of a public
           asset, which does not involve any sharing. 56

          Outsourcing, while close to traditional procurement of services, involves the
           “sharing” of a company’s function; the private partner therefore assumes part of a
           significant business and operating risk. For this reason, outsourcing is generally
           considered a form of a PPP. In this respect, postal worksharing, which entails the
           sharing with business mailers (or presort companies) of upstream mail
           preparation/transportation/sorting tasks and risks that would otherwise have been
           borne by the post, is a variation of the outsourcing model. To some extent,
           workshare prices and eligibility requirements, as set out for each mail product in
           the Domestic Mail Manual (DMM), are equivalent to the “contractual agreement”
           referred to in the definition.

A portion of this definition is problematic: the requirement that the service or facility be
destined “for the use of the general public,” (unless this requirement is intended to refer
to the public interest). Seaports, one of the main areas of PPPs, are mostly used by
freight shipping companies. The GAO’s definition of a PPP refers to a “public service”
and this reference might be more appropriate. 57

PPP Typologies
Any PPP can be described in terms of four basic components:

     1) Scope: What are the assets shared between partners (equipment, skills,
        buildings, IP, technology)? Is it a new facility/public service or an existing one,
        which needs to be restructured or modernized?

     2) Project delivery mix: Who designs or develops/builds/upgrades/renovates?
        Who operates, manages, and maintains? Who sets or oversees rates, prices,
        and quality?

55
   Norment, The Framework of Public Private Partnerships, p. 5.
56
   Although it could be argued that a fully-privatized designated postal operator is still entrusted with universal service
obligations (and in many cases obligations to perform services of general interest) on behalf of the State. This could
be seen as a form of PPP.
57
   GAO, Key Elements, pp. 1, 5.

U.S. Postal Service Office of Inspector General                                                                 June 24, 2013
                                                            24
RARC-WP-13-011                                                                Public-Private Partnerships



     3) Project funding mechanism: Who finances the upfront cost or capital
        expenditure? The public agency, private partner, or both?

     4) Revenue model: Who collects and retains the revenue generated by the asset?
        How are financial flows shared? What payments does the public agency make to
        the private partner (such as “availability payments” to cover operating costs)? Are
        payments performance-related?

There are several terms and acronyms used to describe PPPs. The majority of them
simply reflect different combinations of the categories above, and variations thereof.

Most of these models can be related to two basic typologies.

          According to the scope of the tasks assumed by the private partner: D(esign),
           B(uild), (O)perations, (M)aintenance, F(inancing). This typology was designed for
           infrastructure projects. Two additional dimensions are often considered --
           (O)wnership of the facility (when the private sector owns the facility being built),
           and (T)ransfer of ownership — when the contract provides for return of
           operational oversight to the public partner at a given point in time.

          According to the type of business or legal arrangement between partners:
           outsourcing (including facilities management), franchising, agency agreements,
           (long-term) lease, strategic partnership, joint venture, and concession.

Other terms found in the literature to describe PPPs are mostly variations of the above
typologies (or a mix of the two, such as “Lease-Own-Operate”). Definitions of the most
frequent PPPs are given below.




U.S. Postal Service Office of Inspector General                                           June 24, 2013
                                                  25
RARC-WP-13-011                                                                                      Public-Private Partnerships



          Table 8: Typology of PPPs According to the Tasks Assumed by the Partner 58
 DB (or             Design – Build                A two-phase procurement method in which a single contract is
 turnkey)                                         executed for design and construction services. The private
                                                  developer commits to build the facility for a fixed price and absorbs
                                                  the construction risk of meeting that price commitment. With a DB
                                                  delivery approach, construction can begin prior to completing all
                                                  design details.
 DBO(M)             Design – Build –              A single contract for the entire project with financing secured by
                    Operate –                     the public agency, under which the contractor provides long-term
                    (Maintain)                    operations (and maintenance services) for a specified period of
                                                  time meeting specified performance requirements. The private
                                                  entity thus bears the commercial risk of operating the facility. The
                                                  public agency retains financial risk.
 O&M                Operations and                Public entity transfers to a private partner operations and
                    Maintenance                   maintenance of an existing facility

 DBFO(M)            Design – Build –              DBFOM (as well as DBF and DBFO) are variations of the DB and
 or BOT             Operate – Finance             DBOM methods for which the private partner provides some or all
                    – (Maintain)                  of project financing. The public sector agency retains ownership of
                                                  the facility. Transfer at the end of contract may take place at a pre-
                                                  set price or at then- prevailing market price.
 DBFM               Design – Build –              In this model, the private sector takes the construction and
                    Finance – Maintain            financing risks, but not the operating risk: revenue generated by
                                                  the facility or service is returned to the public agency.
 BOOT               Build – Own –                 Design, construction, operation, and maintenance are the
                    Operate-Transfer              responsibility of the contractor, who also owns the facility and
                                                  retains all operating revenue risk and surplus revenue for the life of
                                                  the facility. BOO therefore is a form of privatization. The BOOT
                                                  method is similar, but the infrastructure is transferred to the public
                                                  agency after a specified time period.




58
   Deloitte Research, Partnering for Value: Structuring effective public-private partnerships for infrastructure, 2010,
downloaded from http://www.deloitte.com/partneringforvalue# on March 22, 2013, p. 19, AECOM, KPMG; Nossaman,
Discussion Materials (Day 1 presentation to the Washington JTC P3 Educational Workshop), downloaded from
http://www.leg.wa.gov/JTC/Pages/PublicPrivatePartnershipsStudy.aspx on May 22, 2013, August 2, 2011, pp. 31-45;
and FHWA, User Guidebook on Implementing Transportation Infrastructure Public-Private Partnerships in the United
States, July 7, 2007, www.fhwa.dot.gov/ipd/pdfs/ppp_user_guidebook_final_7-7-07.pdf, pp. 12-15.

U.S. Postal Service Office of Inspector General                                                                 June 24, 2013
                                                                26
RARC-WP-13-011                                                                                   Public-Private Partnerships



           Table 9: Typology of PPPs According to Legal and Business Arrangements
 Outsourcing               Outsourcing is a partnership whereby the public entity contracts a partner to
 (and facility             delegate a part of its operation or a business function. This is frequently applied in
 management)               the postal sector for non-core functions or for specific parts in the postal process.
                           Outsourcing can be arranged on short notice and does not require investments on
                           the part of the postal operator.
                           Facility management relates specifically to the outsourcing of a non-core function
                           relating to
                                     Space and infrastructure: planning, design, workplace, construction, lease,
                                      occupancy, maintenance, furniture, cleaning, etc.
                                     People and organization: catering, IT, health care, accounting, marketing,
                                      hospitality, etc.
                           In the postal sector it is frequently applied by operators in both developing and
                           developed countries for support functions such as security, technical maintenance
                           and catering. This reduces the level of fixed labor costs, allows the engagement of
                           specialized professionals, and allows the postal operator to focus on its core
                           business functions. Other areas are IT (call centers and data processing),
                           accounting and payments processing, and back office functions for specific
                           products.

                   59
 Franchising               A franchise agreement is a legal arrangement or license between two independent
                           parties which gives
                                     A person or group of people (franchisee) the right to market a product or
                                      service using the trademark or trade name of another business (franchisor);
                                     The franchisee the right to market a product or service using the operating
                                      methods of the franchisor;
                                     The franchisee the obligation to pay the franchisor fees for these rights;
                                     The franchisor the obligation to provide rights and support to franchisees.
                           “Business format franchises” are the most common type of franchising; they not only
                           use a franchisor’s product, service, and trademark, but also the complete method to
                           conduct the business itself, such as the marketing plan and operations manuals.
                           The types of franchise arrangements available to a business owner comprise single-
                           unit (direct-unit) franchises (an agreement where the franchisor grants a franchisee
                           the rights to open and operate one franchise unit), and multiple-unit franchises (area
                           development franchises, master franchises).
                           Franchising of post offices is a form of partnership with the private sector that is
                           increasingly common among postal operators. It can help the postal operator reduce
                           fixed personnel costs, and promote a more entrepreneurial, client-focused
                           approach.




59
   See detailed definitions at International Franchise Association, “What is a franchise?”
http://franchise.org/franchiseesecondary.aspx?id=52625.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                              27
RARC-WP-13-011                                                                                   Public-Private Partnerships

  Table 9 (Cont.)
 Agency                    Manufacturers and suppliers of goods frequently appoint agents to act on their
 agreements                behalf to grow sales. A formal agreement is usually signed setting out the
                           commission the agent will receive, the territory, duration, and other terms on which
                           the principal and agent will do business together.
                           An agent should be distinguished from a distributor, who will buy stock from the
                           supplier and then sell it on to his customers at a mark-up, whereas an agent will find
                           customers for the supplier, who then sells direct to the customers and pays
                           commission to the agent.
                           Agency agreements are widely used by postal operators as a first step of
                           partnership, with the private sector distributing and selling products through the
                           postal retail network. The agency agreement is a relatively simple arrangement and
                           provides the postal operator variable fee income. One can see agency agreements
                           in at least 100 countries addressing, for example, remittances, mobile telecom,
                           consumer finance, insurance, and securities. Agency agreements are a type of
                           partnership that support commercialization of postal operators and help to fill in
                           spaces in the market and to reduce time to market.
 Leasing                   The most frequent leasing PPPs are:
 agreements
                           Tax-exempt lease
                           A public partner finances capital assets or facilities by borrowing funds from a
                           private investor or financial institution. The private partner generally acquires title to
                           the asset, but then transfers it to the public partner either at the beginning or the end
                           of the lease term. The portion of the lease payment used to pay interest on the
                           capital investment is tax-exempt under state and federal laws. Tax-exempt leases
                           have been used to finance a wide variety of capital assets, ranging from computers
                           to telecommunications systems and municipal vehicle fleets.
                           Lease/Purchase
                           A lease/purchase is an installment-purchase contract. Under this model, the private
                           sector finances new equipment (such as computer systems) or facilities, which it
                           then leases to a public agency. The public agency makes scheduled lease
                           payments to the private party. The public agency accrues equity in the
                           facility/equipment with each payment. At the end of the lease term, the public
                           agency owns the facility or purchases it at the cost of any remaining unpaid balance
                           in the lease.
                           Sell and lease back (SLB)
                           The public sector first sells assets, then leases them (or new, upgraded assets) from
                           the private sector. This method provides a one-off cash injection (the proceeds from
                           the sale) and thereby frees up capital to fund capital expenditure or for reallocation
                           to core activities. It allows for a conversion of fixed costs and assets to variable
                           costs, which can be scaled according to the size of the business operation. Tax
                           benefits are realized by offsetting lease costs as an operating expense. The seller
                           remains in day-to-day operational control of the property.
                           Leasing of assets is an option for postal operators to reduce their needs for
                           financing capital expenditure and costs related to fixed assets (depreciation). For
                           postal operators this can be an attractive solution for vehicle fleets, and equipment
                           such as sorting machines. Leasing can be seen as a partnership supporting
                           sustainability of the main value chain components and adding to performance
                           improvement.
                           Enhanced Use Leasing (EUL)
                           An asset management program enabling the public agency to long term lease state-


U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                            28
RARC-WP-13-011                                                                                Public-Private Partnerships

  Table 9 (Cont.)
                           owned property to the private sector for other uses than for its original mission, “in
                           return for receiving fair consideration that enhances the agency’s original mission or
                           programs.” In this case, contrary to the previous example, the owner is the public
                           agency.
 Strategic                 A strategic partnership is a formal alliance between two commercial enterprises. It
 partnerships              usually consists of one or more business contracts, and combines resources to
                           create significant and sustainable value for both parties, to improve the value chain,
                           or create economies of scale and scope. Strategic partnerships fall short of forming
                           a legal partnership or corporate affiliate relationship.
                           Strategic partnerships are increasingly seen in the postal sector’s more competitive
                           business areas, for instance in courier and express markets, where national
                           operators have developed strategic partnerships with global or regional operators. In
                           the financial services area, strategic partnerships have been developed with a focus
                           on distribution of third-party products via the postal retail network.
 Joint ventures            Joint ventures appear as a step beyond strategic partnerships, where partners
                           confirm their commitment to cooperate by creating a partnership or conglomerate
                           designed to share risk or expertise, e.g., assets, investments, management and
                           revenues. Parties agree to develop, for a finite time, a new entity and new assets
                           by contributing equity. They exercise control over the enterprise and consequently
                           share revenues, expenses and assets.
                           Joint ventures are a more comprehensive type of partnership that move postal
                           operators forward in commercialization, reducing time to market for new services
                           and improving performance.
 Long-term                 Under this model, publicly-owned facilities are leased to private sector
 lease                     concessionaires for specified time periods. The private operator usually collects and
 agreements/               retains revenue. Concession agreements establish and regulate rates (e.g., toll
 concession                rates in the case of a highway), and may cap the return on investment for the
                           concessionaire.
                           A frequent variation of concessions is a management contract: the operator will
                           collect the revenue on behalf of the government but will not keep it, and will be paid
                           an agreed fee (availability payment).
                           Few postal operators around the world are operated on a concession or
                           management contract basis, whereby the government remains the ultimate owner
                           and appoints a contractor to manage the operation. LibanPost, Lebanon’s postal
                           operator, operated by a private sector concessionaire, is one of them. Concessions
                           can be seen as a form of integrated partnership to ensure sustainability, business
                           continuity, and improved performance.




U.S. Postal Service Office of Inspector General                                                           June 24, 2013
                                                           29
RARC-WP-13-011                                                                                     Public-Private Partnerships



                   Figure 1: PPPs along a Continuum of Private Sector Involvement
                                                  Private Sector Participation




                                                                                                              Build-
       Design-        Design-                                                       Build-     Build--        Own-
                                      Design-         Design-           Design-
      Bid-Build        Build           Build-                            Build-    Tranfer-    (Own)-        Operate
        (DBB)                                          Build-                                 Operate-        (BOO)
                       (DB)           Operate-                         Finance-    Operate
                                                      Finance                                 Transfer
                                      Maintain         (DBF)           Operate-     (BTO)
                                      (DBOM)                                                  (BOT or
                                                                       Maintain
                                                                                               BOOT)
                                                                       (DBFOM)                               Private
                                                                                                             Sector
                                                                                                            Owns and
                                                                       Design-                              Operates
                      Opera-                            Other
                                                       Private           Build -
                      tions &                                          Finance-
                                                      Financing
                     Mainte-                                           Operate
                       nance                                            (DBFO)      Lease-
                                                                                    Build-                  Asset Sale
                      (O&M)
                     Contract                                                      Operate
                                                                                     (LBO)
                                                                                                            Buy-Build-
                                                                   Long-Term                                 Operate
                                                                     Lease                                    (BBO)
                                                                   Concession




     Traditional                                  Public-Private Partnerships                              Privatized
                                                     60
Source: National Council of State Legislatures




60
  Jaime Rall, James B. Reed, and Nicholas J Farber, Public-Private Partnerships for Transportation: A Toolkit for
Legislators, October 2010, http://www.ncsl.org/documents/transportation/PPPTOOLKIT.pdf, p. 4.

U.S. Postal Service Office of Inspector General                                                                June 24, 2013
                                                                  30
RARC-WP-13-011                                                                               Public-Private Partnerships




Appendix B U.S. Postal Service Use of PPPs
The Postal Service has a long history of engaging in partnerships with the private
sector. The Postal Service uses fixed price contracts and revenue-sharing
(performance-based) contracts to determine compensation, with an increasing reliance
on the latter method. Revenue-sharing agreements alone generate over $2 billion a
year in postage and other revenues. 61 In such agreements, the Postal Service normally
oversees branding and contract governance, while the private sector partner takes the
lead on operational and marketing issues.

Many Postal Service partnerships discussed here are close to the boundary of our
formal definition of PPPs, as they involve Postal Service efforts to use partners as force
multipliers or to reduce its own expenditures, similar to an outsourcing arrangement or
even a traditional procurement. Because most initiatives in this paper involve production
of Postal Service-branded services (such as the sale of postage at grocery stores or
online postage through the PC Postage program) and the parties work closely together
to establish frameworks and standards, such programs involve some shared resources
and shared risk that distinguish PPPs. Thus, we include in the paper discussion of some
programs that may blur the line between PPPs and other types of procurement.

The Postal Service attempted to create a standardized approach to PPPs in 2006 by
publishing internal guidelines on the use of “strategic alliances” to achieve business
objectives. The 2006 guidelines define a strategic alliance as a cooperative
arrangement between the Postal Service and a private entity to share property and
personnel in developing a joint product or service,” similar to the NCPPPs definition of
PPPs. 62 This definition includes cost savings strategies or devices. These alliances can
allow Postal Service partners to use tangible or intangible Postal Service property, or
Postal Service personnel. The guidelines include requirements to perform formal
financial analyses to determine the expected return on investment, including cost
estimates, market valuation, revenue projections, and risk identification and analysis.

In 2011, the Postmaster General issued updated
guidance to the marketing department with the intent of      The Postal Service has
streamlining the complex, multistep stage gate process       attempted to
outlined in the 2006 guidelines, which required several      standardize PPP
approvals by high-level executives. The updated              practices, but does
guidance requires partnership sponsors to notify the         not adhere to a single
Postal Service’s executive leadership team of impending      organization-wide set
                                                             of standards.
alliances; to seek clearance from legal personnel; obtain
certification from financial experts that cost coverage
requirements will be met; and seek advice from other relevant stakeholders. The OIG
found, however, that the new guidelines were not disseminated widely throughout the

61
  USPSOIG Revenue Sharing Agreements, p. 1.
62
  U.S. Postal Service Handbook F-66, Investment Policies and Procedures – Business Initiatives, Alliances, Real
Estate Development, and Major Expense Investments, February 2006.

U.S. Postal Service Office of Inspector General                                                          June 24, 2013
                                                        31
RARC-WP-13-011                                                                        Public-Private Partnerships



organization, and some offices were following even older procedures than the 2006
guidelines. 63

                   Table 10: Classification of Present and Past Postal Service PPPs

                                          Cost Reduction                 Revenue Generation

                                                                      Hybrid Mail
                                                                      Electronic Postmark (general
                                     Contract Postal Units
                                                                       licensing agreements)
                                     Village Post Offices
        Tactical                                                      PC Postage
                                     Electronic Postmark
                                                                      Non-technology licensing and
                                     PC Postage
                                                                       affiliate agreements
                                                                      gopost™ parcel lockers

                                     Energy Savings Performance
                                                                      Coopetition with FedEx and UPS
       Strategic                      Contracts
                                                                       (Parcel Select and other programs)
                                     Worksharing


The following is a non-exhaustive overview of Postal Service PPP initiatives.

Retail Facilities
The Postal Service operates more than 31,000 retail facilities. One of the strongest
business imperatives for the Postal Service is to align the retail facilities with changes in
demand, as mail usage declines and customers move to alternative access channels
such as usps.com. Yet the Postal Service must continue to meet its obligation to
provide universal service to all Americans. The Postal Service’s retail PPPs are aimed
at balancing these critical requirements.

Contract Postal Units
In addition to retail facilities operated by the Postal Service, services are offered through
other approved postal providers. Contract Postal Units (CPUs) are retail facilities
operated by a private entity and staffed by nonpostal personnel. They are typically
located in commercial retail facilities such as grocery stores and gas stations. CPU
operators are compensated using two main models: either fixed-price contracts, or
revenue-sharing arrangements in which the supplier keeps a share of the funds
generated from the sale of postage products. CPUs must follow design requirements
related to available space in the stores, in-store signage and displays, and related
matters. There are approximately 3,600 CPUs.

The Postal Service also engages in more narrowly focused partnerships with thousands
of suppliers. The Approved Shipper program offers services through businesses that




63
     USPSOIG, Revenue Sharing Agreements, p. 8.

U.S. Postal Service Office of Inspector General                                                   June 24, 2013
                                                              32
RARC-WP-13-011                                                                              Public-Private Partnerships



focus on packaging and shipping services. 64 In addition, 64,000 supermarkets,
pharmacies, and other stores sell postage stamps. 65

Sale and Leaseback
Many Postal Service retail facilities are in historic buildings or otherwise valuable
locations. In some situations, the Postal Service must unload excess capacity but retain
a Postal Service-operated retail presence. On other occasions, local stakeholders wish
to maintain the building itself while continuing to access postal services at the location.
The Postal Service has developed creative partnerships to address these situations,
including sale and leaseback agreements. In a sale and leaseback deal, an organization
sells an asset to another party but retains access to it by leasing the asset from the
buyer. The tactic provides immediate capital to the seller while permitting continued use
for the asset’s original purpose or for expanded uses.

In Urbana, Illinois, a nonprofit group executed a sale and leaseback agreement with the
Postal Service to provide community access to a historic Post Office building. The
nonprofit group purchased the retail facility from the Postal Service and used it for a
community center aimed at hosting children after school and for programs aimed at
closing the digital divide. The nonprofit group leases a portion of the facility back to the
Postal Service at no cost for use as a postal retail location.

Technology Innovation Partnerships
Several Postal Service PPPs leverage the ability of private sector vendors to innovate
and provide new services for consumers. These partnerships help the Postal Service
provide services that are congruent with, yet also modernize, the Postal Service’s
mission, while allowing the Postal Service to focus on its core competencies in mail
delivery and infrastructure.

PC Postage
PC Postage is the trade name for the Postal Service’s program that allows customers to
print postage from a personal computer, rather than purchasing a stamp and affixing it
to a mail piece. The postage includes several features to ensure its authenticity,
providing assurance that revenue is being collected properly. While mailers can
purchase digital and print postage directly from the Postal Service using the Click-N-
Ship feature on the usps.com website (which is operated by a private company in an
outsourcing arrangement), several licensees sell the services directly to businesses or
households. Licensed vendors include Stamps.com, Endicia, eBay, and Pitney Bowes.
The program uses a revenue sharing approach in which postage revenue is sent to the
Postal Service.

The PC Postage program is among the most successful and high profile partnership
programs employed by the Postal Service. The program provides convenience to
64
   GAO, Action Needed to Realize Cost-Saving Potential of Alternatives to Post Offices, Report No. GAO-12-100,
November 2011, http://www.gao.gov/assets/590/586334.pdf, p. 12.
65
   U.S. Postal Service, 2012 Form 10-K, November 15, 2012, http://about.usps.com/who-we-are/financials/10k-
reports/fy2012.pdf, p. 16.

U.S. Postal Service Office of Inspector General                                                         June 24, 2013
                                                       33
RARC-WP-13-011                                                                            Public-Private Partnerships



customers, and avoids the costs associated with selling physical stamps at retail
facilities. A related customized postage program offers customers the opportunity to
personalize their postage by supplying images of their choosing such as photos of
themselves, family members, or pets. Stamps.com (through its PhotoStamps.com
website) and Pitney Bowes (through a partnership with Zazzle.com) offer versions of
customized postage. Some PC Postage vendors have partnered with providers of
productivity software applications, integrating their postage services into applications
such as word processing and address management software, providing convenience for
end users. PC Postage vendors also have agreements with third party e-commerce
sites that allow the PC Postage vendors to offer back-end postage solutions, while
consumers interact with the e-commerce site on the front end. 66 This approach extends
the reach of the Postal Service by leveraging the efforts of its partners to find postage
buyers, without additional Postal Service expenditures.

Coopetition
Coopetition is a business buzzword that refers to normally competing firms that look for
ways to cooperate with each other, rather than compete head-to-head for business.
There are a number of Postal Service current partnership programs with its major
competitors. The Postal Service acts as a “last mile” partner for both UPS and FedEx,
handling thousands of deliveries through the Parcel Select program, which is
increasingly significant in the logistics and e-commerce space. Because the Postal
Service is the most efficient provider to the last mile, the program lowers the total costs
of package delivery for shippers, and ultimately consumers. Similarly, the Postal Service
leverages the abilities of FedEx and UPS to provide service in the first and middle mile
or through their large airline fleets. FedEx also provides international logistics for the co-
branded Global Express Guaranteed service.

UPS recently introduced a program that allows customers of participating retailers to
return merchandise by dropping it in any Postal Service mailbox, or at any Post Office.
After a return package is dropped off at a Postal Service location, a UPS driver picks it
up and the UPS ground network transports it back to the retailer. The Postal Service
and UPS also have a partnership to reduce solid waste and greenhouse gases called
“Blue and Brown Makes Green.” GHG reductions will come from increased last mile
deliveries of UPS packages by Postal Service drivers and air freight consolidation on
UPS planes.

Real Estate Leases
The Postal Service owns 198 million square feet of active building space, excluding land
and unused office space, including about 420 processing centers and plants, and 8,600
retail outlets. 67 As recently noted by the GAO, declining mail volume and operational
changes have freed space in many facilities. The Postal Service is authorized to sell,


66
   Stamps.com, 2010 Annual Report, March 15, 2011,
http://files.shareholder.com/downloads/stmp/2479805871x0xS1144204-11-14915/1082923/filing.pdf, p. 3-4.
67
   GAO, Strategic Partnerships, p. 5, and U.S. Postal Service, 2012 Form 10-K, pp. 16-17.

U.S. Postal Service Office of Inspector General                                                       June 24, 2013
                                                      34
RARC-WP-13-011                                                                                      Public-Private Partnerships



lease, or dispose of property and is exempt from most federal laws dealing with real
property and contracting.

In the mid-1980s, the Postal Service implemented PPPs with private developers in New
York City and San Francisco to monetize prime real estate. In both cities, the Postal
Service leased out space in historic properties in desirable downtown locations to
private developers. 68 The developers then built additional commercial facilities on top of
and next to the old postal facilities, and leased space in the new and historic buildings to
other companies. The Postal Service continued to offer retail services out of a portion of
the facilities. The developers were responsible for operating and subleasing the
commercial portion of the facilities, and dealing with relevant regulations. 69 The GAO
described the PPPs in favorable terms, referring to the San Francisco partnership as
“lucrative for the Postal Service”. 70 The Postal Service earned millions of dollars in lease
payments and used contractual provisions to transfer some of the project risks to the
private developers. 71

Other Partnerships and Contractual Arrangements
The Postal Service has deployed a variety of partnership models with some success,
but they have not become core programmatic approaches for the organization. Other
successful initiatives, such as worksharing, have impacts similar to PPPs, although they
also have elements similar to traditional procurement and are rarely discussed as PPPs.

Sustainability Partnerships
The Postal Service and other federal agencies use energy savings performance
contracts (ESPCs) to privately finance improvements in energy efficiency that would
otherwise not be financed (if at all) through appropriations, or in the case of the Postal
Service, from revenues. 72 Under an ESPC, the Postal Service or other agency enters
into a long-term contract (up to 25 years) with a private energy service company under
which the company initiates energy efficiency measures using private funds. 73 The
Postal Service then repays the contract out of the estimated annual savings. The Postal
Service benefits through obtaining private sector expertise with no upfront costs. The
Postal Service has reduced its reliance on such contracts in recent years because it has
more legal flexibility than other agencies to shift funds to capital expenditures, and thus
avoid the additional long-term financing costs of an ESPC. 74 The shared savings model,
however, could be replicated in other areas where the Postal Service wants to avoid an
upfront capital investment, and might be considered by the Postal Service as a vehicle

68
   The Postal Service still owns the New York Grand Central Station Post Office building, and uses it for retail
activities. In San Francisco, the air rights for the Rincon center were divided into three parcels, one of which is still
owned and is in use for postal retail activities.
69
   GAO, Key Elements, p. 47-55.
70
   Ibid, p. 53.
71
   Ibid, pp. 50, 53.
72
   GAO, Energy Savings: Performance Contracts Offer Savings, but Diligence is Needed to Protect Government
Interests, Report No. GAO-05-340, June 2005, http://www.gao.gov/assets/250/246803.pdf, p. 8.
73
   Ibid, p. 2.
74
   GAO, United States Postal Service: Urgency Needed to Address Aging Delivery Fleet, Report No. GAO-11-386,
May 2011, http://www.gao.gov/assets/320/318032.pdf, footnote 62.

U.S. Postal Service Office of Inspector General                                                                 June 24, 2013
                                                            35
RARC-WP-13-011                                                           Public-Private Partnerships



for providing services to other government agencies. In addition, the current capital
shortage could prompt reconsideration of ESPCs themselves.




U.S. Postal Service Office of Inspector General                                      June 24, 2013
                                                  36
RARC-WP-13-011                                                                                    Public-Private Partnerships



Appendix C Foreign Posts and PPPs
This Appendix reviews several types of partnerships among foreign posts according to
their strategic intent.

                                   Table 11: Classification of Foreign Post PPPs

                                          Cost Reduction                          Revenue Generation

                                                                           Innovation (digital)
       Tactical                  Retail financial services
                                                                           Retail financial services


                                 Vehicle fleet leasing                    Retail network partnerships
      Strategic
                                 Retail estate management                 Innovation (digital)




Monetizing and Variabilizing Fixed Assets
Most postal operators are endowed with a large portfolio of fixed assets, such as land,
buildings, vehicles, and equipment. As a result of changes in postal technology and
business processes, a portion of these assets is no longer relevant, functional or adding
value to operations. Other parts of the assets have exceeded their economic or
technical life; while others are not fully usable due to market and organizational
changes.

Fixed assets continue to create fixed costs such as depreciation, maintenance, and
overhead, and add to operations expenditure. Fixed assets that cannot be adapted to
fluctuations in business volume then become a burden.

For several reasons disposal of redundant or irrelevant assets is not always feasible in
the postal sector when parts of existing premises are underutilized. Often the legal and
institutional framework applicable to the public postal operator does not allow using
fixed assets as collateral for corporate finance to attract capital to modernize or improve
the business, or to modernize and upgrade the assets. The nature of business for
today’s postal operators does not always require full ownership of all fixed assets:
business objectives can be achieved through enforceable contracts.

In the postal sector, the fixed asset turnover ratio provides insight into the actual usage
of non-current assets. The ratio is 3.54 for the Postal Service based on 2012 figures.
This ratio is higher than, for example, the ratio for La Poste (France) at 3.05 and much
higher than Correos (Spain) at 1.30. The ratio of the Postal Service is slightly lower than
bpost’s (Belgium) with 3.85 and the UK’s Royal Mail with 4.34, but much lower than
Poste Italiane with 6.17, Deutsche Post with 8.13, or PostNL with 9.47. 75


75
  Fixed asset turnover is a financial ratio that measures the efficiency of a company's use of its fixed assets in
generating sales revenue or sales income to the company. It appears as a relevant ratio in this study for

U.S. Postal Service Office of Inspector General                                                               June 24, 2013
                                                              37
RARC-WP-13-011                                                                                   Public-Private Partnerships



Nearly all European postal operators have or have had one or more partnerships with
the private sector to increase usage of the fixed assets, improve liquidity and capital
resources, and facilitate the conversion of fixed assets (and fixed costs) into variable
costs related to, and adaptable to, business volume. As they transform into leaner
organizations, international practice shows there is still ample room for partnerships that
add new services or operations to increase labor productivity; increase the use of non-
current assets to optimize asset turnover; convert existing non-current assets through
disposal and lease or leaseback of equipment, buildings or technology; and leverage
the value of non-tangible assets of the postal operator (brand, intellectual property,
marketing databases, and ongoing business relations) through partnerships inside and
outside the country of operation.

Vehicle Fleet
The Postal Service manages the world’s largest civilian vehicle fleet, composed of
about 213,000 owned vehicles that primarily support mail delivery. This fleet includes
about 142,000 right-hand drive long-life vehicles (LLVs). The expected service life of the
LLVs is 24 years, and they are now between 19 and 26 years old. The OIG has found it
costs more to maintain some of the older LLVs than it would to purchase new
vehicles. 76 The OIG has also recommended that the Postal Service deploy electric
vehicles in urban areas. 77 Postal Service management has developed plans to
purchase new vehicles, but the Postal Service’s shortage of capital has prevented
implementation.

                                 Table 12: Vehicle Fleet Management Strategies
 Management                       Strengthen the vehicle fleet management capacity, skills and insights with
 consultancy or                   private sector practices of commercial fleet management. Fleet management
 interim management               transforms from a technical function focused on operations management to a
 or internal task force           complete business management function operating as a service to the
                                  business units needing the vehicles, fuel, staff and maintenance.
 Sale and leaseback               Portions of the vehicle fleet are sold through a new or already established
                                  lease company; a special legal entity or other structure can be used. In
                                  addition to the sales and leaseback, other forms of leases can be used,
                                  varying from financial lease to full operational lease. In the latter case, many of
                                  the functions of vehicle fleet management can be transferred to the private
                                  sector (garages, parking lots, vehicle maintenance facilities, etc.).
 Outsourcing                      Portions of the collection and delivery transport could be outsourced. This step
                                  goes well beyond a “traditional” equipment lease. To further enhance the
                                  flexibility of available vehicles, several postal operators subcontract part of the
                                  operations to individuals and small local firms, whom they entrust with the
                                  collection or delivery of mail or parcels on certain days.



benchmarking in the postal industry, more than profit related ratios, although caution is required because the
principles of valuation of the fixed assets may differ significantly. Fixed asset turnover ratio analysis by Hans Boon
and decision/analysis partners based on postal data.
76
   USPSOIG, Audit Report – Delivery Vehicle Replacement Strategy, Report No. DA-AR-10-005, January 16, 2010,
https://www.uspsoig.gov/foia_files/da-ar-10-005.pdf, pp. 1 and 5-8.
77
   USPSOIG, Audit Report – Delivery Fleet Strategies, Report No. CI-AR-12-006,
https://www.uspsoig.gov/foia_files/ci-ar-12-006.pdf, p. 13.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                             38
RARC-WP-13-011                                                                                   Public-Private Partnerships



In light of the OIG’s recommendations to replace part of the fleet with modern vehicles,
it may be helpful to outline the strategy foreign posts use to involve the private sector in
the management of their fleet; options are indicated in Tables 12 and 13.

The evolution of private sector participation in vehicle fleet management and operations
has led to situations where many or all of the posts’ light duty delivery vehicles (mainly
minivans) are leased from private lease companies as a service and/or contracted out
to private sector companies. Large trucks, tractors, or trailers are sometimes operated
under lease contracts. As with other partnerships, such a move requires an assessment
of value for money versus the cost and risk of operating an own vehicle fleet.

                                                  Table 13: Vehicle Fleet Leases
                                    Case Studies: UK Royal Mail with LeasePlan UK
                                       Poste Italiane with LeasePlan Italia S.p.A
                                                                                78
                                       TNT Post B.V. with ING Car Lease B.V.

                                            To increase profitability, focus on core business and reduce fixed
                                             assets, fixed cost, overhead and resources involved in other areas.
 Project Description                        3-Year Full Operational Leases: to provide a range of specialist
                                             services including procurement, administration, maintenance, repairs
                                             and disposal.

                                            Supply and maintain its 5,000 non-operational company cars (UK),
                                             2003
 Main Business
 Objectives / Results                       Supply and maintain 16,000 operational delivery cars in 2011 (Italy)
                                            Supply and maintain 600 Cleaner Cars in 2012 (Netherlands)

                                            Reduction of operations cost
                                            Improved and flexible liquidity

 Success Factors /                          Actual cost accountability
 Lessons Learned                            Shared cost savings
                                            Exception reporting
                                            Sustainable fleet management



Real Estate Models
Like the Postal Service, postal operators abroad have often faced issues related to
unused or underused real estate assets. In many cases, mail sorting facilities and large
post offices, which are often located near railway stations or in the center of cities and
towns have become underutilized or unutilized. Post offices in centers of medium-sized
78
   Post and Parcel, “UK Royal Mail chooses LeasePlan to run its company cars,” March 3, 2003,
http://postandparcel.info/7898/news/uk-royal-mail-chooses-leaseplan-to-run-its-company-cars/; LeasePlan press
release, “The fleet of the Italian Post Office will be managed by LeasePlan,” March 2011,
http://www.leaseplan.it/it/noleggio-a-lungo-termine/chi-siamo/giornalisti/comunicati-stampa/1103.php; and PostNL
Annual Report 2011, 2012, http://annualreport2011.postnl.com/corporate-responsibility/corporate-responsibility-
performance/environment/21-company-cars.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                               39
RARC-WP-13-011                                                              Public-Private Partnerships



towns, and villages might have been constructed for manual mail processing, leading to
excess space in the age of mail automation. Meanwhile, public retail space in post
offices has often played a part in the social fabric of communities, creating strong
resistance to the elimination of excess capacity.

With the transformation of the postal sector, the role of the private sector management
and ownership of real estate for postal services has evolved. The main stages in the
evolution of private sector involvement are the following.

Creating a Real Estate Business Function in the Post, through Consultancy or
Interim Management
This is not a PPP, but a first important step towards more PPPs. The objective is to
introduce or strengthen the commercial real estate management capacity and
knowledge within the postal agency. Real estate management is transformed from a
technical function focused on providing support for operations to a complete business
management function, acting as an internal “landlord” providing office space or
production space as a service to the business units needing space, renovation and
maintenance.

Applying agreements for the usage of square footage and market-based internal
transfer pricing promotes efficiency, transparent cost allocation, and performance
accountability. This approach also incentivizes and helps management to seek ways to
increase revenues through service diversification, colocation, and letting of space to
third parties, among other means. In some countries this business unit has been
established as a subsidiary of the post. Examples of such real estate companies are

          Deutsche Post Immobilien GmbH (DPI), a central entity renting real estate to
           postal business units within Germany. Other entities include Deutsche Post Real
           Estate Germany GmbH, Deutsche Post Immobilienentwicklung (real estate
           development), Deutsche Post DHL Corporate Real Estate management GmbH,
           and others dealing with construction or engineering. Deutsche Post operates
           through approximately 12,000 sites and 27 million square meters worldwide.

          Poste Immo (S.A.), a subsidiary of France’s La Poste with 1.7 billion euros equity
           with 1,100 specialized staff, manages real estate of 7 million square meters in
           12,244 buildings, of which 8,354 buildings (70 percent) are owned by La Poste. A
           small part of the real estate is rented to third parties. With a market value of 4
           billion euros, real estate is the single largest asset on La Poste’s balance sheet
           and the second biggest item in expenses.

          Others include Swiss Post’s Post Immobilien GmbH, Austria Post’s Post
           Immobilien GmbH, Vienna, the Netherland’s PostNL Real Estate B.V., and the
           UK’s Royal Mail Estates Ltd.




U.S. Postal Service Office of Inspector General                                         June 24, 2013
                                                  40
RARC-WP-13-011                                                                          Public-Private Partnerships



Sale and Leaseback of Portions of the Real Estate Portfolio
This is a PPP in which the postal operator transfers to the private sector risks of real
estate management, such as generating inadequate rental revenues. Sale and
leaseback allows postal operators to convert fixed assets into liquidity and transform
high levels of fixed costs into variable costs. It can be structured through a contract with
one or a few selected real estate investors, or through a real estate investment trust
(REIT) — a special purpose vehicle that can be publicly listed on the stock exchange
with a structure similar to the one mutual funds provide for investment in stocks.

The exact scope, function, and duration of lease contracts differ, and offer flexibility to
the postal operator to adjust the usage of square footage to business needs, and to
gradually vacate part of the building, which can be leased to third parties. For national
retail chains and individual retailers (such as travel agents, mobile phone shops,
newspaper kiosks, drugstores, or coffee shops) renting a portion of the ground floor in a
postal building can be attractive given its prime location and the significant foot traffic to
and from the post office and surrounding retail businesses. The second and higher
floors are typically rented to service companies such as small law firms. From the
investor’s perspective, sales and leaseback tactics tend to be considered attractive to
the extent that a portion of the building continues to be rented by a high-profile trusted
entity that is expected to remain in business in the long-term.

In addition to sale and leaseback, “classic” leases are increasingly seen by posts as the
preferred arrangement for new postal real estate such as new international mail centers,
warehousing, and logistics centers. Lease contracts generally have a term ranging from
5 to 12 years, with options to renew the contract. For instance Prologis, a global owner
and operator of industrial real estate leases 12 million square feet of warehouse space
to Deutsche Post DHL in Europe, Asia, and North America. 79

When the closing of a post office or the relocation to another building of an underused
facility is not feasible, several other forms of partnerships with third parties can be used.
Subletting of space in areas shared with (or adjacent to) postal services is common.
Examples include postal banks that operate their branches in separate parts of postal
buildings (for example, in Romania, Uganda, and the Philippines), travel agents in main
post offices (for example, in Lithuania and the Kyrgyz Republic), or mobile phone SIM
card dealers in Armenia’s largest post offices.




79
   Prologis Strengthens its Relationship with DHL with New Lease in Poland, Prologis,
http://www.prologis.com/docs/country/central-and-eastern-
europe/Prologis%20signs%2033,800%20sqm%20with%20DHL%20in%20PPDabrowa.pdf.

U.S. Postal Service Office of Inspector General                                                     June 24, 2013
                                                     41
RARC-WP-13-011                                                                                  Public-Private Partnerships



                                  Table 14: Real Estate Management – Germany

     Case Study: Sale and Lease Back and Onward Sale to REIT – Deutsche Post Immobilien GmbH-
                                                               80
                                    Lone Star Real Estate Fund

                                Sales of 1,267 buildings and land owned and used by Deutsche Post within
                                 Germany in FY 2008.
                                Cash value of the transaction is 1 billion euros, for which the buyer raised 0.7
                                 billion euros in bank financing and structured the deal through a special
                                 purpose vehicle. The real estate portfolio was a split 70 percent mixed-use
 Project
                                 properties and 30 percent logistics properties and development sites. The
 Description
                                 mixed-use properties typically comprise ground floor retail with offices and
                                 residential space on top and are 16,000 sq. ft. in size on average.
                                Deutsche Post continues to lease in most buildings part of the space available
                                 for its own operation, mainly retail, and about 20 percent of space has been
                                             rd
                                 rented to 3 parties.

                                Raise cash / liquidity.
                                Improve financial performance ratios and reduce fixed costs and fixed assets.
                                Focus on core postal business and transfer real estate management and rental
                                 and sales of unutilized or underutilized space to third party.
 Main Business
 Objectives /                   Strongly improved liquidity for Deutsche Post, Germany providing nearly 2
 Results                         billion euros in funding and a basis for finance for business development.
                                Significant reduction in fixed assets and related fixed assets in buildings that
                                 were partly obsolete for current business model and operations.
                                Deal execution not generating public or political resistance; no straightforward
                                 closure of offices.

                                Lone Star provided 300 million euros from own funds and arranged finance of
 Success                         700 million euros from German and French banks.
 Factors /                      The real estate outlook was positive in 2008 prior to the Lehman Brothers
 Lessons                         collapse. The continued role of Post in most entities kept investor appetite high,
 Learned                         while major and high quality investment opportunities on the German real
                                 estate market are expected to remain scarce.



Retail Networks Partnerships
Many of the international models of retail partnerships combine different types of PPP
models, responding to a need to reduce fixed network costs, adjust to changing
customer access needs and demographics, and grow revenue.




80
   The Wall Street Journal, “Deutsche Post to sell properties to Lone Star,” April 1, 2008,
http://online.wsj.com/article/SB120704078381279963.html and Deutsche Post, “Deutsche Post World Net sells real
estate portfolio to investor,” April 1, 2008, http://www.dp-
dhl.com/en/investors/investor_news/financial_news_archive/2008/dpwn_verkauft_immobilienpaket.html.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                            42
RARC-WP-13-011                                                                                Public-Private Partnerships



The most common partnerships involve

          Conversion of fixed assets through franchising, and partnerships with
           municipalities or small companies in rural areas.

          Diversification to increase revenues, enter new spaces, and share costs through
           agency services agreements or joint ventures with banks, utilities, and
           governments. Developing a bundle of postal services combined with technology-
           based financial services and mobile telecom services and other e-based services
           is an increasingly common strategy.

          Go-to-market partnerships include alliances with IT partners to launch value
           added services such as authentication services, or with independent retailers to
           extend networks of parcels drop off or collection points.

A striking difference between the Postal Service and many of its peers is the degree to
which the retail network has either been outsourced (for example PostNL, Deutsche
Post and Royal Mail, to name a few, no longer own and operate a single post office), or
has become an enabling infrastructure in support of private sector businesses and
government services, as opposed to “just” a first and last mile provider of postal
services.

Franchising versus Postal Agencies
Several operators which own and operate extensive networks experience financial
losses at as many as 90 percent of their post offices. Since rural presence is considered
a part of the postal universal service obligation (USO), operators often take the loss as
a given-- a natural result of compliance with the USO that requires continued financial
support from the state, market protection or internal cross-subsidies.

At the end of 2011, within the EU-15, about 60 percent of the 74,000 retail post offices
were reported as not owned and not operated by the postal operator. 81 Australia has 80
percent of its post offices operating on a franchise basis, many in rural areas. Italy and
Spain have yet to begin the process, and still own and operate 100 percent of their post
offices.

The United Kingdom and the Netherlands have had an evolutionary process of over 20
years of repositioning the retail post office as a separately incorporated operation. The
revenues of the retail network are predominantly from sales and distribution of
nonpostal, fast-moving consumer services and goods; the costs are mainly variable and
related to the performance of franchising partners.




81
  Analysis performed by decision/analysis partners based on postal data. The EU-15 are the 15 highly developed
countries that made up the European Union prior to the inclusion of several former Soviet bloc and other eastern and
central European states in 2004.

U.S. Postal Service Office of Inspector General                                                           June 24, 2013
                                                        43
RARC-WP-13-011                                                                                   Public-Private Partnerships



                                        Table 15: Franchising/Licensing Model

                                                                                            82
                       Case Study: The Australia Post Franchising/Licensing Model


                             Transformed Australia’s Post Office network into a network of licensed and
                              franchised branches including licensed post offices, community postal agents and
                              post shops.
                             3,000 licensed post offices (LPO), run solely as a post office or in conjunction with
 Project                      another business such as a news agency, dry cleaners or convenience stores.
 Description                 630 community postal agents (CPAs) operate in rural areas, 90 percent of which
                              are collocated with another business such as a general store.
                             Flagship “PostShops” only in large cities, of which 30 (as of September 2012)
                              have been converted into Superstores (mail + mail related businesses + parcels
                              stations) owned and operated by Australia Post.

                             Some of the PostShops are franchised (also known as Franchised Post Offices or
                              Franchises).
                             LPOs offer postal products and services, bill pay, banking, money orders, postal
                              packaging and mail services. Most also provide products and services such as
                              stationery, greeting cards, phone cards, photocopies, facsimile, small gifts.
 Main
 Business                    CPA: Focus on basic postal services; they don’t offer agency services such as
 Objectives /                 Postbillpay or Bank@Post.
 Results
                             PostShops converted into Superstores offer in addition to postal offerings, parcels
                              lockers, a so-called “digital zone” allowing customers to shop online + eBay
                              corner, counters dedicated to government services, kiosks for bill payments and
                              other services.
                             Franchised PostShops offer only Australia Post products and services.

 Success                     Franchisee/licensee/postal agent model offers entrepreneurs opportunity to start
 Factors /                    their own business with an established brand, with training, technology and
 Lessons                      management support, and in most cases the option to expand their business to
 Learned                      additional services adapted to the needs of the local market.



An increasingly popular model is franchising of postal retail outlets. For the postal
operator, the franchise is an alternative to that reduces investment, labor costs, and
fixed assets costs, and solves the problem of finding ways to reduce the idle time of
staff. Postal franchisees are believed by some to have a greater incentive than an
employee of a state-owned entity because the franchisee has a direct stake in the
business. Franchising relationships may present an opportunity for the postal operator

82
   Post Office Agents Association Limited, “Looking to buy a post office?” http://poaal.com.au/post-
offices/resources/looking-to-buy-a-post-office/; Australia Post, “Operating as a post office,”
http://auspost.com.au/about-us/operating-as-a-post-office.html; Postalnews, “South Australia’s flagship postal
superstore opens in Adelaide,” July 18, 2012, http://postalnews.com/postalnewsblog/2012/07/18/south-australias-
flagship-postal-superstore-opens-in-adelaide/; and Australia Post, “Australia Post delivers new superstores and a
Digital MailBox for all Australians,” March 26, 2012, http://auspost.com.au/about-us/australia-post-delivers-
superstores-and-digital-mailbox.html.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                            44
RARC-WP-13-011                                                              Public-Private Partnerships



to improve customer service. At the same time, they may also present an increased risk
in image, reputation, quality and continuity.

Franchise partners often include large, nationwide chains, such as supermarkets,
bookstores, or drugstores, because of their foot traffic, the profile and retail expertise of
the partner chain, and the availability of unused or underutilized space. They can also
include small individual operators, who will most often propose nonpostal services
responding to local demand, in addition to postal services.

The Australia Post retail outsourcing model is another example of extended retail
outsourcing. It is based on a mix of business models, each corresponding to a different
level of risk sharing between the post and its private partners. Contrary to the
Netherlands, Australia still has a few owned and operated offices. Franchising appears
a proven success formula in many other countries. The scope of franchise differs. In
some cases such as in Brazil, the franchisees are also active in mail production,
including printing.

Creating a Sustainable Retail Network through Multiple Partnerships: UK Post
Office Ltd.
There are around 11,000 Post Office branches across the UK, of which 373 are directly
managed by Post Office Ltd. The majority of other branches are either run by franchise
partners or local subpostmaster agents (most of them members of the National
Federation of SubPostmasters), as "subpost offices.” As part of the Postal Services Act
2011, Post Office Ltd became independent of the Royal Mail Group on April 1, 2012 and
is now owned by the government. Following separation from the Royal Mail Group, a
10-year agreement was signed between the two companies to allow Post Offices to
continue to sell stamps and handle letters and parcels for Royal Mail.

In the UK, a Post Office’s image, sales development, and customer satisfaction heavily
relies on the business partners that operate retail outlets and run Post Office as a
franchise; they range from individual entrepreneurs to small and nationwide retail
chains. Its financial viability also depends on the number and range of business
partners from both the public sector (government agencies, municipalities) and private
sector, which leverage Post Office’s network of 12,000 points to distribute to the public
services and products — from fishing rods to foreign currencies — at affordable prices
and cost, 6 days a week. What helps to make the business viable is the economies of
scope incurred as more services from new and existing partners are added to the mix
(spreading the network’s fixed costs over more products, and increasing opportunities
for cross-marketing).

The main business partnerships relate to local government services (partnership with
municipalities for sharing local office operations costs, and the provision of local
government services); (national) government and e-government services such as
drivers licenses and residence permits; financial services on behalf of “partner banks”
such as Bank of Ireland; and the provision of multiple agency services often through
Post Office-branded products (e.g., prepaid phone cards, broadband Internet, Post
Office HomePhone landline services).

U.S. Postal Service Office of Inspector General                                         June 24, 2013
                                                  45
RARC-WP-13-011                                                               Public-Private Partnerships



Lessons learned from UK and Dutch partnership model can be summarized as follows:

          A national postal operator does necessarily have to “own and operate” its
           network.

          There is a need to find the right balance between social public policy objectives
           (the “front office” of national and local governments, the social value of local
           offices), and the “enabling sales infrastructure” dimension (in support of banks,
           retailers, telecom operators, etc.). Both have spawned multiple partnerships,
           which increase the value of the Post Office platform.

          Successful franchising models take time to implement: The Dutch or British
           postal franchising models cannot be easily replicated — the Dutch model was
           implemented over a period of 15 years. More than a single model, a combination
           of partnerships (involving agreements with local governments, retailers, banks
           where possible, etc.) is often needed to ensure the long-term sustainability of the
           retail network — combining public policy, sales, and cost-reduction objectives.

Innovation Partnerships
The scope of such alliances is very wide — in this respect, models used by posts do not
differ much from those used by other companies. Both are looking to improve their
value chains by leveraging strategic partnerships to gain access to new technologies
that enable them to launch new products or adopt innovative processes. The main
difference between posts and other large service companies possibly resides in the
specific legal and regulatory constraints that in many countries limit the post’s margin to
maneuver.

For this paper, the focus is on which models would be most conducive to a fast, cost-
effective implementation of new innovation. For instance, the development by a post of
an open digital or hybrid mail platform can lend itself to different forms of partnerships
with private sector developers, who can extend the functionality of the post’s digital mail
product and improve users’ experience. Different revenue models can also be
considered such as revenue sharing or participation fees.




U.S. Postal Service Office of Inspector General                                          June 24, 2013
                                                  46
RARC-WP-13-011                                                                                 Public-Private Partnerships



                          Table 16: Examples of Strategic Alliances for Innovation

                                                                                                       83
                Case Study: Digital Mail Box – Partnership with Telstra, AMP, and Westpac


                         Partnership with Telstra includes
                                   Telstra as a participant in the Australia Post Digital MailBox (giving
                                    customers access to their Telstra communication documents like account
                                    statements and bills via the new Australia Post Digital MailBox).

 Project                           Australia Post using Telstra's Australian based hosting and network services
 Description                        (e.g., Digital MailBox service to be hosted on Telstra's cloud platform).
                                   Partnerships with Westpac (a bank) and AMP (a financial services company)
                                    as a user of the Digital Mail Box “to share information with its customers
                                    about their finances, investments and products, safe in the knowledge that
                                    their information is secure; backed by Australia Post and protected in our
                                    Australian based cloud provided by Telstra."
 Main
                         Telstra: Started with a MOU followed by strategic partnership agreement.
 Business
 Objectives /            AMP: MOU with Australia Post.
 Results
 Success
 Factors /               Ongoing.
 Lessons
 Learned



The choice of a “model,” however, captures only one part of the whole picture. It
explains just part of the success or failure of collaborations in the postal sector. In fact
recent history of global postal strategies abounds with examples of

          MOUs signed at the CEO level that don’t trickle down because of postal
           hierarchies, and thus don’t lead to concrete collaborative activities. Ambitious
           work plans, therefore, never materialize.

          Joint pilot tests/proofs of concept of a partner’s technology that are not
           implemented in a “real world” market environment, and the results of which
           therefore cannot be used as a basis for the preparation of a sound business plan.

          Joint, in-depth collaborative efforts involving both senior leaders and technical
           experts from post and partner, aimed at launching a new postal service, which
           never go beyond the business plan phase. Absent a concrete, final go/no go
           decision on the part of the post, the partner ends up losing interest in
           collaboration and confidence in the post’s decision-making ability.

83
   Australia Post, “Australia Post and Telstra sign strategic partnership on Digital MailBox and IT network,” June 01,
2012, http://auspost.com.au/about-us/telstra-strategic-partnership-digital-mailbox.html and Australia Post, “Westpac
to partner with Australia Post on Digital MailBox,” September 10, 2012, http://auspost.com.au/about-us/westpac-to-
partner-australia-post-on-digital-mailbox.html. This program involves additional PPPs, including agreements with U.S.
companies.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                            47
RARC-WP-13-011                                                                Public-Private Partnerships



          Postal/private sector collaborative efforts negatively affected by widely-differing
           business cultures, or postal staff’s reluctance to share information with private
           sector peers they see as “suppliers,” if not potential competitors, rather than
           partners.

          Partnerships called off at the last minute because of government pressure or
           nomination of a new CEO or senior leaders.

The effectiveness of a post’s innovation partnerships will depend on its ability to create
a culture that encourages and rewards products and process innovation.




U.S. Postal Service Office of Inspector General                                           June 24, 2013
                                                  48
RARC-WP-13-011                                                                              Public-Private Partnerships



Appendix D PPPs and Government Agencies in the
           United States
Federal and state governments have a long history of partnerships with the private
sector to develop infrastructure projects. In the 19th century, the federal government
worked with private railroads to facilitate westward expansion. The government
provided the right-of-way and related development property while the railroads used
private capital to build the rail facilities and rolling stock. 84

Modern interest in PPPs accelerated in the 1980s, as the federal government looked to
ways of funding projects through users rather than taxpayers. One response was to
experiment in the early 1990s with alternative contracting methods such as design-build
(DB) and design-build-operate-maintain (DBOM). At the time governments assumed
that private investors could take over the entire public development process and deliver
a self-supporting toll road that the government would own after a 30-35 year concession
period.

In recent years public officials at all levels of government have increasingly suggested
that private investment should take on a much larger role in replacing public funding for
needed infrastructure, housing, and other capital-intensive projects. Advocates of PPPs
claim that as much as hundreds of billions of dollars in private investment is available
for PPP infrastructure projects.

Summary by Key Sectors
Although most PPP literature focuses on infrastructure projects such as transportation,
housing, water/wastewater treatment, the scope of PPPs is in fact much broader. In
principle they can encompass many other services provided by U.S. states (e.g.,
lotteries, web portals) or municipalities including

          Transportation –These new projects are mostly express lanes that can be
           “tolled,” built next to existing freeways in heavily congested urban areas (High
           Occupancy Toll Lanes). According to sector experts, to be “financeable” by the
           private sector, such projects require a long concession period (e.g., 85 years) to
           allow for private investors to recoup their investment, or an upfront capital
           infusion from the state.

          Water and wastewater treatment – There are around 2,000 PPPs between
           municipalities and private companies to provide water and/or wastewater service.
           PPPs between municipalities and private entities can save customers anywhere
           from 15 to 25 percent through effective cost controls, innovations, economies of
           scale, and sound asset management practices.



84
 See David Seader, The United States Experience with Outsourcing, Privatization, and Public Private Partnerships,
NCPP, 2002, p. 1.

U.S. Postal Service Office of Inspector General                                                         June 24, 2013
                                                       49
RARC-WP-13-011                                                                       Public-Private Partnerships



          Seaports – PPPs involve the private sector in a variety of capacities to provide
           construction, operations, maintenance, and/or financing of seaports. The trend
           for seaports is toward longer and more comprehensive tenant leases that
           incorporate construction and shift risk to the private sector. The substantial equity
           investment in these projects shows the private sector is willing to accept market
           risk, including economic fluctuations, if given a long-term agreement to operate
           the terminal and invest in capacity expansions.

          High tech – These PPPs involve sharing technologies in response to several
           strategic objectives by the public agency including transferring technologies from
           a public agency to private partners, promoting IT services through an open
           platform, reducing capital expenditure in IT systems through lease/buyback
           PPPs, outsourcing to acquire needed external IT skills, attracting IT contributions
           in cash or kind to policy goals, and mobilizing private sector expertise.

Selected Examples of PPPs
Below are some specific examples of PPPs. The classification scheme in Table 17
focuses on the primary justification or characteristic of the partnership. Some types of
partnerships would fit into more than one quadrant.

            Table 17: Classification of Government Agency PPPs in the United States

                                          Cost Reduction                 Revenue Generation

                                     State partnership for
 Tactical                             development of online           CRADA IP Licensing
                                      services


 Strategic                           Toll road concession            Enhanced Use Lease




U.S. Postal Service Office of Inspector General                                                  June 24, 2013
                                                              50
RARC-WP-13-011                                                                                   Public-Private Partnerships



                                  Table 18: Access to Cutting-Edge Technology

     Case Study: Collaborative Partnership Between Texas Department of Information Resources
                                                                    85
                             (DIR) and NIC USA to Develop Texas.gov

                                      No tax dollars, 100 percent transaction-based self-funding model of
                                       partnership.
                                      Texas.gov operates the state’s “one stop shop” online portal, serving 70
                                       state agencies and 180 local governments and 1 university with a total of
                                       more than 1,000 online services.
                                      7 year contract, renewable every year after 2016.
                                      Project entirely funded from small transaction fees paid by users.
 Project Description
                                      Partner responsible for development and implementation of new
                                       applications, operations, customer service, marketing.
                                      Master agreement lays out partners’ commitments.
                                      State DIR keeps oversight of website’s strategic direction, approves
                                       transaction fees and other rates, and monitors budget and performance.
                                       Governance structure includes a joint DIR/NIC USA Executive Steering
                                       Committee and a Customer Advisory Committee where 17 client agencies
                                       are represented.

                                      Project not only saves operational costs but also generates revenue for the
                                       state, which received $31 million (share of revenue) in FY 2012.
 Main Business
                                      Successful portal (many national e-gov awards), 2 million transactions per
 Objectives / Results
                                       month.
                                      Fast implementation of new IT/Web Tools.

                                      Private partner NIC USA is a specialist in self-supported web portals
                                       (projects in 23 U.S. states) and can draw from its portfolio of specific e-gov
 Success Factors /                     applications (e.g., payments modules) which leads to economies of scope.
 Lessons Learned
                                      First version of the site (Texasonline) although commercially successful
                                       went bankrupt in 2009 due to first partner BearingPoint’s restructuring.




85
   Texas Department of Information Resources, Report on Texas.gov, November 15, 2012,
http://www2.dir.state.tx.us/SiteCollectionDocuments/Texas.gov/2012ReportOnTexas.gov.pdf, NIC Inc., “texas.gov,”
http://www.egov.com/Partners/Pages/Texas.aspx.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                              51
RARC-WP-13-011                                                                                     Public-Private Partnerships



                        Table 19: Monetizing Public Agencies’ Patents or Research

                                                                                                    86
                       Cooperation Research and Development Agreements (CRADAs)

                                        Created by the Federal Technology Transfer Act of 1986.
                                        Used by federal laboratories to engage in collaborative efforts with non-
                                         federal partners to achieve the goals of technology transfer. It is not an
                                         acquisition or procurement vehicle.
                                        Takes into account the needs and desires of private industry when
                                         commercializing a product (e.g., the need for confidentiality and perhaps
                                         for exclusive rights to a product), as well as a reward structure for
                                         government (e.g., sharing in royalties).
                                        The government may contribute a wide variety of resources (personnel,
                                         services, facilities, equipment, and intellectual property) but not funds.
                                        CRADAs allow the federal lab and its private partner to share patents and
 Project Description
                                         patent licenses for the research conducted (or inventions created) during
                                         the agreement, while also permitting one of them to hold exclusive rights
                                         to a single patent or patent license.
                                        Many business models used including revenue-sharing, direct payment
                                         for the needed resources (e.g., fee for the use of facilities by partner), and
                                         royalties. Several alternative arrangements regarding licensing, but in all
                                         cases the government retains a nonexclusive, nontransferable license to
                                         inventions developed under the CRADA. This allows the government to
                                         use the invention, or to have it used on its behalf, anywhere in the world
                                         without royalty payments and without infringing on any patent rights.
                                        Trade secrets or privileged information that develops during the course of
                                         a CRADA can be protected from disclosure for up to five years.

                                        Government benefits by getting direct payments or royalties.
 Main Business                          Provides a framework to monetize public research and patents in support
 Objectives / Results                    of economic growth.
                                        As of 2009, there were 4,200 active CRADAs involving many agencies.

 Success Factors/                       Most effective for the successful commercialization of products or
 Lessons Learned                         processes originating in federal laboratories.




86
  Lara Getz, “Fact Sheet: CRADAs, Cooperative Research and Development Agreements,” American Security
Project, November 29, 2011, http://americansecurityproject.org/wp-content/uploads/2011/12/CRADAs-FINAL.pdf.

U.S. Postal Service Office of Inspector General                                                                June 24, 2013
                                                               52
RARC-WP-13-011                                                                                   Public-Private Partnerships



                                            Table 20: Long-term Concessions

                                                                                         87
                                  Case Study: Indiana Toll Road Concession Lease


                                      Highway built in 1956, owned by the state of Indiana.
                                      Concession bid won in 2006 by Macquarie (an Australian investment bank)
                                       and Cintra (European infrastructure developer).
                                      75-year concession lease, 156-mile toll road where concessionaire collects
 Project                               and keeps toll revenue.
 Description                          Concession agreement establishes toll rates/possible increases, limits
                                       return on investment (ROI) for concessionaire, provides for mandatory
                                       rehabilitation investments (electronic tools, etc.).
                                      Concessionaire operates, maintains, rehabilitates, and collects tolls.
                                      Private sector financing: 20 percent equity, 80 percent debt.

 Main Business                        State of Indiana wants to monetize aging asset and use proceeds to fund
 Objectives /                          other (200) transportation projects.
 Results                              Save on operating costs vs. direct management.

                                      Special legislation by state was narrowly passed. Failure to pass would
                                       have stopped project.
                                      Several bidders, winning bid valuation well over expectations.
                                      Very high bid valuation ($3.8 billion) considered too high by some
                                       observers, given long-term uncertainty on traffic volumes. Bidder may have
 Success Factors/                      overpaid. As of 2011 operations were still unprofitable, with cash flows
 Lessons Learned                       insufficient not capable of sustainable high level debt over the long term.
                                       Long-term financial sustainability questionable.
                                      Very long term (75 years) seen by some as de facto privatization.
                                      Quasi-monopoly status does not guarantee profitability.
                                      A 75-year lease would make less sense in industries facing rapid
                                       technological changes.




87
   FHWA, Project Profiles, http://www.fhwa.dot.gov/ipd/project_profiles/in_indianatoll.htm, FHWA, PPP Case Studies,
April 23, 2008, (downloaded from
http://www.dot.state.oh.us/groups/tft/Appendix%20B/Public%20Investment%20Articles/Indiana%20Toll%20Road.pdf
on June 5, 2013) p. 1, and Ryan Holeywell, “The Indiana Toll Road: A Model for Privatization?” GOVERNING,
October 2011, http://www.governing.com/topics/mgmt/indiana-toll-road-model-privatization.html.

U.S. Postal Service Office of Inspector General                                                              June 24, 2013
                                                             53
RARC-WP-13-011                                                                 Public-Private Partnerships



Public Policy Drivers of U.S. PPPs
In this section, we highlight some policy tools that have encouraged the development of
new PPPs in the United States.

General Enabling Legislation
Enabling legislation guides a state’s PPP program development and the selection and
execution of specific projects. In some states, legislative approval is also required for
specific projects. Enabling statutes set conditions that promote or prevent PPPs, guide
development of state PPP programs, provide foundations for PPP contracts, and affect
the risks involved for each party. The first state PPP legislation was enacted more than
20 years ago in California. More than 30 states now have PPP legislation.

Such legislation generally addresses

          Scope of PPP – Some types of legislation allow a specific project to “test the
           waters”, or permit sector-specific PPPs, such as road infrastructure. At least 22
           states with PPP legislation allow public authorities to engage with the private
           sector on infrastructure projects beyond highways and roads, such as ferries,
           pipelines, and rail or other public facilities.

          Level of state legislature oversight – The legislation states whether prior approval
           is requested for new PPPs, and what process public agencies should follow.

Policy Tools to Lower the Cost of Capital
Since the late 1980s federal and state governments have proactively supported the
development and implementation of PPPs through new financing mechanisms,
including

          State infrastructure banks (SIBs) – At least 32 state governments have
           established infrastructure banks to support projects in surface transportation.
           SIBs are revolving funds administered by states that support surface
           transportation projects. An SIB functions much like a bank by offering loans and
           other credit products to public and private sponsors of highway or mass transit
           construction projects. SIB assistance may include loans (at or below market
           rates), loan guarantees, standby lines of credit, letters of credit, certificates of
           participation, debt service reserve funds, bond insurance, and other forms of
           non-grant assistance.

          Private activity bonds (PABs) – PABs are tax exempt and can be issued by a
           government agency on behalf of private developers. Providing private developers
           and operators with access to tax-exempt interest lowers the cost of capital
           significantly, enhancing investment prospects.

          The Transportation Infrastructure Finance and Innovation Act (TIFIA) of 1998 –
           TIFIA established a federal credit program for eligible transportation projects of
           “national or regional significance” under which the U.S. Department of

U.S. Postal Service Office of Inspector General                                            June 24, 2013
                                                  54
RARC-WP-13-011                                                                                 Public-Private Partnerships



           Transportation (DOT) may provide secured loans to non-federal project
           sponsors, loan guarantees, and standby lines of credit that may be drawn upon
           during the first 10 years of a project’s life. The program's fundamental goal is “to
           leverage Federal funds by attracting substantial private and other non-Federal
           co-investment in critical improvements to the nation's surface transportation
           system.” 88

So far these financing tools have played a key role in helping with the financing of
PPPs, particularly in the transportation sector.




88
   California Department of Transportation, Transportation Infrastructure Finance and Innovation Act (TIFIA) of 1998,
http://www.dot.ca.gov/hq/innovfinance/tifia.htm.

U.S. Postal Service Office of Inspector General                                                            June 24, 2013
                                                         55
RARC-WP-13-011                                                                             Public-Private Partnerships



Appendix E                         A Brief Overview of Value for Money
                                   (VfM) Analysis
VfM is an increasingly popular tool for assessing the costs and benefits of PPPs. VfM is
relatively new in the U.S. compared to Europe, Canada, and Australia. 89 In recent
years, however, U.S. jurisdictions such as Virginia have adopted VfM and published
guidance documents on the topic. 90 In addition, the Federal Highway Administration
(FHWA) has recently published extensive materials on VfM and other aspects of PPPs.
The FHWA’s VfM guidance and related documents are available at

http://www.fhwa.dot.gov/ipd/p3/toolkit/guidance_documents/index.htm.

VfM analysis compares the net present value (NPV) of a PPP bid (or a hypothetical
PPP bid, known as a shadow bid, if the analysis is done at the pre-procurement stage)
to the NPV of pursuing the same project or program through a more traditional
procurement. The cost of a traditional procurement forms the baseline for the VfM
analysis; this baseline is called the public sector comparator (PSC). The VfM analysis
should be performed before the public agency receives bids, and can be updated after
parties have submitted their bids.

While there are various models, VfM for PPPs should consider

          Full Life-Cycle (FLC) cost and revenue analysis for each option – This should
           include all costs including human resources, construction, operation,
           maintenance, future capital improvement costs, and ancillary expenses such as
           legal fees.

          Estimate of Risk – The benefit of the majority of PPPs is transferring risk away
           from the public sector to the private sector. This risk transfer can outweigh the
           disadvantage of higher costs.

          Finding Net Present Value – Since PPPs are often over numerous years, and
           possibly decades, it is important to include a NPV analysis of future costs and
           income streams, and develop an “apples to apples” financial comparison. 91 Both
           methods might involve different future cash flows — the PSC could involve loan
           repayments to a financial institution, for example, while the PPP could include
           periodic service payments to a private partner over a longer period of time. To
           determine the relative values of these separate cash flows, the agency must
89
   Federal Highway Administration, Value for Money: State of the Practice, December 2011,
www.fhwa.dot.gov/ipd/pdfs/p3/vfm_state_of_the_practice.pdf, p. 48, and Dorothy Morallos, Adjo Amekudzi,
Catherine Ross, and Michael Mayer, Value for Money Analysis in US Transportation and Public-Private Partnerships,
Transportation Research Record: Journal of the Transportation Research Board, No. 2115, Transportation Research
Board of the National Academies, Washington, D.C., DOI: 10.3141/2115-04, 2009,
http://people.ce.gatech.edu/~aa103/ValueforMoney.pdf, p. 32.
90
   Commonwealth of Virginia Office of Transportation Public Private Partnerships, PPTA Value for Money Guidance,
April 2011, http://www.vappta.org/resources/VDOT_VfM_guidance_document_August2012.pdf.
91
   NCPPP, Testing Tradition, pp. 8-11.

U.S. Postal Service Office of Inspector General                                                        June 24, 2013
                                                       56
RARC-WP-13-011                                                                                  Public-Private Partnerships



           apply a discount rate — conducting a discounted cash flow analysis — to
           account for the time value of money. The discounted cash flow analysis will allow
           the agency to compare the NPV of both costs and revenues for the PSC and
           PPP. Small changes in the discount rate can change the outcome of the analysis
           and are often a point of contention. The FHWA advises public agencies to apply
           multiple sensitivity tests using “different discount rates to ensure that the
           outcome is not skewed or biased by the selected discount rate.” 92
Figure 2 illustrates the VfM process.

              Figure 2: VfM Compares Net Present Value of Alternative Procurements

                                      VfM = NPVpsc - NPVppp
                        Retained Costs
                         Procurement
                         Construction                                      Risk                              Apply
                                                                                                            Discount
NPV of PSC      =        Maintenance              —   Revenue Stream   +    Retained Risk
                                                                                                              Rate
                         Insurance and Taxation                             Transferable Risk
                         Human Resources
                         Capital Improvement
                         etc.




                        Retained Costs                                            Retained                   Apply
                                                                                                            Discount
NPV of PPP      =        Any remaining costs      —   Revenue Stream   +            Risk
                                                                                                              Rate
                         Service Payments



For clarity and simplification, Figure 2 focuses on quantitative issues in evaluating a
PPP. In many or most cases, a public agency should also add formal consideration of
qualitative issues, including potential effects on stakeholders, legal and regulatory
issues, and the ability of private sector partners to achieve the project’s goals.

Figure 3 shows a potential result of conducting a quantitative VfM analysis. Figure 3
indicates the PPP achieves quantitative VfM because the net present cost of the PPP is
less than net present cost of the public sector comparator. The results in this figure
indicate a “go” decision for public sector entity considering a PPP, based on quantitative
factors (although qualitative factors should also be considered for the conclusion to be
determinative). On the other hand, if the net present cost of the PPP were above that of
the public sector comparator, then this would indicate a “no go” decision for the public
agency.




92
   FHWA, Value for Money Primer, December 2012,
http://www.fhwa.dot.gov/ipd/pdfs/p3/p3_value_for_money_primer_122612.pdf, p. 3-3.

U.S. Postal Service Office of Inspector General                                                             June 24, 2013
                                                          57
RARC-WP-13-011                                                                               Public-Private Partnerships



                    Figure 3: An Illustrative Outcome of a Quantitative VfM Analysis




Source: Federal Highway Administration, P3 Toolkit, http://www.fhwa.dot.gov/ipd/p3/toolkit/index.htm

PPPs are often complex transactions and comparisons to other forms of procurement
can be difficult. The PPP often involves a tradeoff between reduced risk to the public
agency and higher long-term financing or service costs demanded by the private sector
partner. Public sector officials and stakeholders can make tactical errors by focusing
exclusively on either the benefits of the reduced risk in the PPP or the cost of higher
financing in the PPP, to the exclusion of other factors. Therefore, a comprehensive
comparison is needed to provide a more complete picture of the total costs of the
project. VfM analysis can expose the potential benefits and drawbacks associated with
the various options. This can make the difference between successful and unsuccessful
projects.




U.S. Postal Service Office of Inspector General                                                          June 24, 2013
                                                        58
RARC-WP-13-011                                                                         Public-Private Partnerships




                                     U.S. Postal Service Office of Inspector General
                                                  1735 N. Lynn Street
                                                  Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                      For media inquiries, contact Agapi Doulaveris
                                              Telephone: 703-248-2286
                                               adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                    June 24, 2013
